Appendix
A

IDEAN 5-0000000011

STATE OF CALIFORNIA
Department of Industrial Relations
Division of Workers' Compensation

WORKERS' COMPENSATION APPEALS BOARD

f-a/z# h

)
)
)

n

Case No.

mcoml-,

AEO

Applicant,)

Southern
&//<son
Defendants

)
)
)
)

Petition for
Reconsideration

A decision was filed in the above-entitled case on
The

fl/O/OJjftrfft

y

j

is aggrieved by said

decision and hereby petitions for reconsideration upon the following grounds: (strike out items not
applicable)

3. The evidence does not justify the findings of fact.
4 pofjfirmpr has Hi^fweeefH^tewnCTTtdence^Baterial todriTirwlTlrlTtrtrcould not
have discovered and produced at the hearing.
5. The findings of fact do not support the order, decision or award.
In support of the above, petitioner gives the following details, including a statement of facts upon which
petitioner relies and a discussion of the law applicable thereto:

6 e£. &

h

/£> o' & 3ft ft z

O

9r

•0

Coflbw0

DWC/WCAB Form 45 (Page 1) (Rev 4-14}

IDEAN 5-0000000021

0‘

WORKERS COMPENSATION APPEALS BOARD
Facts February 15, 2010 through Present
California Labor Code Section 132a
ADJ8009847, ADJ8386217, ADJ8386218

PETITION FOR RECONSIDERATION

Faizah Dean, Applicant

!

vs.

Southern California
| Edison, Defendant
Summary ot Facts

;: Disputed

Erik Emery is an employer representative and witness. Erik Emery is defendant.

Present

Applicant was employed by Southern California Edison beginning July '3, 2009 through November i 4, 2010
The complaint is a continuous action.
Tne evidence does not justify the finding of facts.
Petitioner discovered new evidence materia!.
The findings of fact do not support the order, decision or award.
I disagree with the findings of facts 1 through 7 because of the following :
Labor Code §§§ 3357,3351,3600. Threshold Issue. The question of whether an employment relationship was in existence at the
time of an alleged employee's injury is a basic jurisdictional inquiry. Tc oe compensated, an employment relationship must have
arisen out of an in the course of “employment". Safeway Stores, inc. v WCAI3 (Pointer), 104 CA 3D 528, 45 CC 410 (1980). Finding :
of Facts i: Disputed. Joint Findings and Orders dated 12/13/2017, page 10, paragraph i (beginnng with "However...* and ending
with “Par Eiectric).

:

California Labor Code §3357. Applicant FaiZ9h Dean was employed by Par Electric (a contractor of NECA) November 19, 2010
•11/18/10). Traditionally', an employment contract may be oral or in writing; the usual elements ' are (1) consent of the parties, (2}
consideration for the services rendered, and (3) control by the employer ever the employee." Finding cf Fact f :Dispjted*2 There
was no employment on 11/14/2010. The applicant was no longer paid and toid to leave. Laid off orTerminated.
2/4/2014 United States District Court judgement. Four years after the applicant was terminated, the defendant was p3rt of a
judgement in the United States District Court February 4. 2014 that concludec that the employee assistance program was a
medica: exam. The employee assistance program (herein as ‘'medical exam”) was job related and business necessity; however,
the employment was terminated a* the time of the medical evaluation. Conclusion; the “medical exam” was not business necessity
because it was a “Voluntary Benefit1' furnished to a non-employee and filing cf a claim form is unnecessary, it was not business
necessity; after the applicant was terminated. (SOE). E-U.S. District Court Judgement.

;

C^nuous'/^onTIffect of Wng Application. Voluntary Benefits, Nature and purpose of Statue of limitation: My claim form was
filed 2/1/2013 after filing with the board of psychology for a copy of my medical record from Psychotherapist Joan Frances under
the Holman Group whom was subject to tne defendant paid comprehensive evaluation of QME Dr. Victoria Khrul in October 2013
after I selected GME panel and appointment in Pro Per illegally. I objected io another evaluation because of the continuous action
by the defendant was evidence that the action was illegal. By filing the federal compliant against Southern California Edison in
December 2012, and subsequently adding defendant IBEVV Local 47 and multiple ether employers related to the employee
assistance program (medical exam), in 2014, theU.S. District Court Judge Misheal W. Fitzgerald determined that the employee
assistance program was job related and business necessity and It started at Southern California Edison and continued. There was
not any employment at the time of the medical exam for business necessity' rule to be effective. The employment assistance
program (EAP) would have had to have taken place during the course of employment. However, it was again a voluntary benefit
called and employee assistance program. The court determined that the Union was not the employer but the Employment
Development Department determined that the IBEW Local 47 was the employer. Tne law would not allow the court to use the EDD
determination in any other tribunal. The Hc-lman Group was related to Southern California Edison and tne IBEVV Local 47 benefits.
The contractors employee assistance program was under the Lineco Benefits Plan for union member Labor Code section 5404
through 5412. Effect of Filing Application, Statue of limitation-. It is the filing of an application for adjudication cf claim, not the filing
of a claim form, that establishes the Appeals Board's jurisdiction and commences proceedings for collection of benefits. The issue
Is the date cf the discrimination beginning and ending. The timeline of the violation of the Workers Compensation Public Policy is
continuous. Voluntary Benefits commenced, delayed, and denied (after the applicant was terminated). The filing of the proceeding

Medical Evidonce-Kaiser Work Status Report dated 6/23/2010. Finally, the court stated that the employee need not show. That the
employer’s agents consciously or deliberately set out to prevent or delay the employee's filing of a claim. Rather, the employer's
violation, through -is negligence, of its duty to provide a claim form and notice c-f potential eligibly when it learns that an
industrial injury has occurred or is being asserted, resulting in the employee's prejudicial reliance, is sufficient to give rise to
estoppel.

X~

[a.^

cv

*!
/
1

|DEAN 5-000000003}

AmendmenTThe caption. Trie tteiimflanfdiS net deny the olaini'unt;l five years after it was filed. The defendant did not respond to
tn* compliant filed in 2/1/2013 within twenty days. No response was filed. The United States Ottnet Court Judgement dated
j!/a/2C1« was a judgement made for failure to respond within the time allowed. The court considered it conaan, to granting „ ,e
motion in favor of the defendant. An order may be a judgement. The defendant did not respond. The applicant counse n ro. er
was cause .
Amended the Caption only. The case numbers were added because the defendant denied the Work Status
of action for Voluntary Workers Compensation Benefits with date of injury 02/15/201 0. Nchce of Ceiay doted b/30^0ia and
Denial dated 11/19/10. The body of the complaint did not change from 2013 to Present. 0^l5r2u101..rough < b 1_,201u ass fa.
greater than 90 cays. If it was about eight (8) months after having knowledge of a date of Injury mat the company denied .he
Voluntary Workers Compensation Benefits and five days after terminating the applicants employment.
201 s’thmSfih SOEiSifflStiSd mat he was not there. It he
was not there then me does not know what happened on that day and everything «*e ne was just making up. I also argued t,«.
me Findings cl Facts and Employer Representative is net reliable and the documents were not started. Because of tms the
defendant and tne employer representative was not there, give personal testimony, and represents the defendant Sou.- .ern
California Edison, tne document could not be authenticated by the defendant or witness
'5efwlJanf NctwTKelth'Dobson said'"thai'he'dFd net approve of them removing Dean from the apprenticeship.except for safety.
August 17 2010 the company personnel suspended the applicant without just cause (Complaint cage c: une o-^8 and page 3,
>jnei -28 and pace 4 line 1 o’), then agreed to reinstated her for cause and gave her a performance action plan. The company
gave dean a performance action plans tor 50 days on 8/1 S/2010, back pay for the suspension, anc terminated her .or poor
performance as an apprentice lineman. E-

The 60/60 Program Is a four month apprenticeship program unfamiliar to the applicant and differs by me apprenticeship po,:cy. An
apprentice can not get more than 26 B's on monthly legs. A performance Action plan is to have the signatures of the, foreman.
Byron Redd and Er* Emery did not follow the policy. When an non emergency work related me,cent occurs the company ,u to ,^ke
the employ to designated doctors and activate the workers compensation policy. Byron Redd and Enk Emery drd not tobow t.«
Company pokey. (SOE;?)

s^ssi&ssssssg^sa^s^^;
the applicant to Drift!, whether voluntary or involuntarily removed from the apprenticeship. Finally, the company terminated the
appkean- or laid her off <60 days non-paid leave is not discipline it is illegal). The applicant was ro .onger working for the company
after 11/13/2010, She went the the union nirmg haliand began work with Pa: therein,. 1 ..-13,^010.
TimeVne of the discrimination boasn 02/15/2010 iv/nen the company gave nctice of delay of the Voluntary Workers compensation
Benefits for a date of injury 2/15/10) California Labor Code §132a discrimination began 2/t 5/10 through 12/13/17 (when the
company denied the voluntary Workers Compensation Benefits on 12/13; 171.

Unfair Trial arid Subpoena Duce tecum: The applicant' noted to the court that there were multiple documents with the same dates.
The court allowed the detente counsel to use documents that was not admitted during the trial tc question the witness^. opened
but the court allowed this to continue. The defendants evidence was eontritea after . >e discovery pe. od hau tegu.^The court
admitted evidence by the defendant in its order after the discovery period had run. I fnea a oubooena Du„e recum eft-r the
defendant failed to provide the burden of proof.

Summary of'EvidScirExhibitefShth^prio/'/Scs subject of the"joir.rRndih8s' and Order dated 12/13/2017 and 1/U'2020
to be included v/rth the timeline, disputed: tinding of fact, and Summary of Facts.

1----- --- ---------------------------- 11/14/2010
"wTsummary of Evidence. Exhibits from
the prior esses subject of the Joint
Findings and Order dated 12/13/2017
the known adverse factors involved in his or her employment and his ot her disarm./. Chambers v. W.C.A.B., ia68,6. cal.
• and 1 /14/2020 to be included with the
556-559, 72 Cal. Retro. 51.446 P 2d 531, 33 Cal. Comp. Cases 722. Tne employee was not chargeable with know edge.
. timeline, disputed: Finding cf fact, and
Summary^ 0f Facts.

=~s3s& mmmm=gmrnss
Ail Summary of Evidence,

ExhibE tmm"FSdinbs'oi f£Tfl/SSref SSiSTEst5S>S^Piead Statea. Stetue cfliroitafomblsputed;-JcfSntei V/VcXes:^ 218

' timeline, disputed: finding of fact, and
Summary of Facts.

sur+i rendu;/suggests that the filing of a formal claim is unnecessary/ E-Kaiser Records. E- Ka.»er Work Status R-port 3/.3riO,
E- No*ic» of Delay a'30'10 E-Denial 11/19/10. However, when the employer raised the st».ue of limitations as a defense m its
answer a'nd declaration of readiness to proceed but did not pursue the issue at that in an unpublished
considered to be abandoned by the employer and could not be relied upon by the Appeal Board to reje„. tne vmpl„yee s claim.
Guild v. W.C.A.9. (1959) 64 Cal. Coop, Cases 175,178,

2
IDEAN 5-000000004]

"Alt Summary of Evidence. Exhibits from
the prior cases subject of the Joint
Findings and Order dated 12/13/2017
■ and 1/14*2020 to be included with the
timeline, disputed: finding of fact, and
Summary of Facts.

Findings o?Fact#5: DTsputidTfhiappiicant was not employed by Southern California Edison after 11/13/2010. Prior to her
termination 11/14/2010. the applicant worked under the direct supervision of Erik Emery and Byron Redd in the Foothill District.
Fontana Service Center in Fontana. CA for defendant Southern California ctfson between May 24. 2010 through November ’’4.
2010 as an Apprentice Lineman (without knowledge of any prior step completion prior to coming to service center 3S it was a
union job. Erik Eme-y (herein as “Defendant") does not know anything about the union collective bargaining agreement). iSOE) Erik
Emery was designated the employer representative. (SOE) 1. Applicant was employed by the defendant Southern California
Edison in the Foothill District at the Fontana Service Center. 2. Applicant was discharged n/i 4/2010. The Kaiser Medical Report
dated 8/23/2010 was a substantial motivating reason for Applicant Faizah Dean's discharge; the discharge caused her harm.
Southern California Edison evaluated her for a reasonable accommodation (SOEj. voluntarily turn-shed workers compensation
benefits to the applicant based on the Kaiser Medical Work Status Report, delayed her Workers Compensation Benefits August
30. 2010, terminated her employment on November 14,2010 (11/14/10). then defied her Works* Compensation benefits on
November 1S. 201C. Four years after tne applicant w'as terminated, the defendant was part o- a judgement m the United States
District Court from December 2012 to February 4,2014 that concluded that the employee assistance program was a medical
exam. The employee assistance program (herein as “medical exam”) was job related and business necessity; however, the
employment was terminated at the time of the medical evaluation. Conclusion; the ‘'medical exam” was not business necessity
because it was a ‘'Voluntary Benefit” after the applicant was terminated {SOE;.

Ail Summary of Evidence. Exhibits from
the prior cases subject of the Joint
Findings and Order dated 12/13/2017
• and 1 /14/2020 to be included with the
. timeline, disputed: finding of fact, and
Summary of Facts,

Findings of FactsrfS: Disputed. E-HH, KK. a ndlhie Petition to Reorder Erik Emery for Impeachment with evidence. These were
subject to an argument over tne petition to recall and reorder Erik Emery as an employer represemat-ve and witness for purposes
of -mpeachment. The impeachment of the witness for inconsistent statements and insert evioence was important .n determining
the difference between the company and persona: testimony. Erik Emery was allowed to give personal testimony. This v'’3san
unfair trial. He can make up what ever he wants. The threats hold issue is did the defendant violate public policy Cal. Lab. wode §
132a. In the previous trial on the same cases and facts the witness on the witness list was Enk Emery, tnk emery sat m trial and
the applicant counsel '-objected". The grounds for the applicants counsel’s objection *s that the defendant Erik Emery employer
representative for Southern California Edison was on the witness list prior to proceeding with tra I. Then at me end of the tnai he
testified as a witness and affirmed he was an employee and employer representative in cross examination, the new evidence
explains whv the Voluntary Workers Compensation Benefits was denied and continuous action against the applicant after ^
termination on 11/14/20i Q. It explains that the defendant did not meet the burden of proof. Tne court was informed that tnei' were
two documents with the same date and different information. One document was an exit.na interview' and the second document
was not an exiting interview. The court asked the witness Erik Emery "employer representative’ what is an exiting interview? Erik
Emery said "he was not there!" The two documents were not signed by the witness and he was no: there, so impeachment and
inclusion of new evidence was needed to clarify the confusion between the defendant, employer representative, and witness
personal testimony. It sounds like the defendant was not there. It is assumed that the company knows if its employee- was no
longer employed or no longer in the service of Southern California Edison. On 1 Vi4/10 to present all act.on taker was
discriminatory, adverse, and denied her the benefits of the workers Compensation policy.

All Summary of Evidence, Exhibits from
the prior cases subject of the Joint
Findings and Order dated 12/13/2017
' and 1/14/2020 to be included with the
timeline, disputed: finding of fact, and
Summary of Facts.

Findings of Fact *6 Disputed. rThe defendant, witness, hearing employer representative, and designated employer representative
Erik Emery sat in the hearing in the previous trial after I objected. Objection was based on that fact the the heamg employer
representative Erik Emery and designated employer representative was a witness on the witness list. 2. The designated employer
representative was a witness on the witness list in the bifurcated case for violation of Workers Compensation Policy Cat. Lab.
Coda § i32a. The defendant committed a crime. The defendant did not follow the Apprentice Lineman Program. Company.
Workers Compensation, anti OSHA policy, procedures, rules, and violated safety. Evidence = E. E-Oefer.dant Notes

All Summary of Evidence, Exhibits from toiuMSvbindik vviivw ol Statue', Estoppel io pi^siatueT Findings of caciSiDisputed Failure U> toy Liability within SO days ■
*i an C 55402). Failure to provide a claim form to the employee within 24 ncurs. «he burden of proof shifted to the defendant. The
the prior cases subject of the Joint
employee s^ettne the benefit of the Lab C § 5402(b) presumption must be prepared to prove that the claim form was .‘led with the
Findings and Order dated 12/13/2017
and 1/14/2020 to be included with the
timeline, disputed: finding of fact, and
strict limits on establishing such an estoppel. Six days after the defendant received the work status report, tne ae.endant
Summary of Facts.
voluntarily cave the applicant workers compensation benefits on or about August 30. 2010 (The w®* status repcrt*s *** c!sim

s*^aK«8sa^«KKSS5^

'

of the Kaiser Medical Work Status Report. 77 days after having knowledge of a possible went 'elated tnjupj. tne defendan,
Notice of Delay. E*Denial. The court permitted the defendant to bring ev-cence after tne trial began and discovery was dosed for
=ts burden of proof, then denied my Subpoena duces tecum after the defendant failed to meet the burden cf proc-, tne cou.»
denied part of my petition to impeach and new evidence against the defendant, employer representative, and witness Eric* Emery
SOEi i'SOET’ Kim v. Kona’s USA Distribution, Inc (2014) 226 Cal App.4th 1336. 1351 [172 Cal. retro.3D 686j. “An action for
wrongful termination in violation of public policy ’can only' be asserted against and employer." TTtere wasmo w**0*™"1*;*'
1V13/10. There was a Kaiser Medical Work Status Report dated 8/23/10 received by the employer cn6/^;20iQ Pnor tw the
applicant's termination H/H/t0 and Denial of Voluntary Benefits 11/19/10. McDaniel v VV.C.A.B. ti 900) 218 Ca. appoDJ OH.
id 7 267 Cal Raptor. 440, 55 Cal. Comp. Estoppel to plead the statue. When the employer's conduct is such as to =ead the
employee in reliance or. this conduct to postpone the filing of a claim with the Appeals Board until arts' the statutory period has
run the employer may bee stopped from raising the defense of the statue of limitations. For example, the employer may be
stepped from pleading the statue when the employer had voluntarily furnisnec benefits t the employee, since such conduct
suggests that the filing of a formal claim is unnecessary. E*Kaiser Records, E- Kaiser Work Status Report, E- Wotice of D© ay, EDenial Waiver of Statue. Findings of Facts*/: The running of the statue of limitations s an affirmative de.ense. and may oe
waived. Failure to present the defense of the running of the statue prior to the submission of the cause fcrdw/so.rmsi*isw « ovit
waiver, as .s the furnishing of compensation benefits after the statutory period has run, thus reviving the claim. Jn., d States F. S
G Co V I A C .'Avila) (1925) 135 Cal. 577, 234 P. 369. When there is no evidence t.nat an employer withdrew tne defense after t>
was pleaded in ihe answer to the employees application tor adjudication, the court o< appeal In an
the tact that the settlement conference summary and the trial issue sheet Sid not mention the statue of limitations as a defense did
not constitute a waiver. However, when the employe raised the statue of limitations as a defense in its answer and declaration of
readiness to proceed but did not pursue the issue at trial, in an, unpublished opinion the defense was considered t be abandoned

...
.........May 24, 2010
Weekend off

May 21.2010

3
IDEAN 5-0000000051

' AH Summary of Evidence. Exhibits from Applicant Faizsh Dean waTuinsferred to Chino Training Center andTeported at the Chino Training Center located in Chino. CA for
defendant and employer Southern California Edison for lineman training between Way 3, 2010 through May 21.2010. The
the prior cases subject of the Joint
applicant went to the service center on May 21,2010 to introduce her self to 3yron Redd and familiarize herself. Finding of
Findings and Order dated 12/13/2017
| and 1/14/2020 to be included with the : Findings of Facts#: Disputed. There was not any performance problems reported from Southern California Edison Chino Training
iCenter
to reporting Foothill Service Center located in Fontana. California on o* before May 2*, 2C^0.
timeline, disputed: finding of fact, and
Summary of Facts,
May 3, 2010

. ..... ..................... ....... " May 2.'2010
' Alt Summary of Evidence, Exhibits from Applicanfwas hired as a Union Apprertice linemari and Groundman A-3. She worked from July 13,2009 througn May 2. 2010 at
the Wiidomar Service Center.
‘ the prior cases subject of the Joint
. Findings and Order dated *2/13/2017
•. and 1/14/2020 to be included with the
•.timeline, disputed: finding of fact, and
' Summary of Facts.

;
July 13,2009
Faizah Dean

Attomey/ln Pro Per:

Cate:

4
IDEAN 5-000000006]-

WHEREFORE. Petitioner requests that reconsideration be granted; that further proceedings be
had; and that decision be made to give petitioner all the benefits to which he is entitled under the
Labor Code of the State of California, including the relief requested herein.

hyjzr//';

Petiti

Attorney for Petitioner
STATE OF CALIFORNIA
County of

S Oir/hcr/Z

)
)
)

Tdii/ersjJd

vs'

»

m

I, the undersigned, say that I am

in theabove-en titled action.' I have read the foregoing petition for reconsideration and know the
contents thereof, and that the same is true of my own knowledge, except as to the matters which
are therein stated upon my information or belief, and as to those matters that I believe it to be
true.
I declare under penalty of perjury that the foregoing is true and correct.

Executed on

Tfhmiry

3 j_

, 20

California.

at

/ypjz/?/y T?e^n_

Petitioner

NOTE: If verification is by attorney or officer of a corporation it must comply with Section 446
Code of Civil Procedure.)
cACopy mailed to: '
Date of Mailing:

7?,

'
\e,0
)

(Signature)
DWC/WCAB FORM 45 (Page 2) (REV. 4-14)

rx€&£

,75c?7 5

i )‘

*Bo

ft

fa

IDEAN 5-0000000071'

C<i.

5,1

Proof of Service by Mail
I declare that:
, California.

I am (resident of / employed in) the county of

I am over the age of eighteen years, my (business / residence) address is:
50,03

‘€2 jf*

^/

&i/£fbick) COO 7^^ 0
Wziiev) Jc

sJc/6?ch&>-)

0*1/03//I served the attached
On- ,
on the parties listed below in said case, by placing a true copy thereof enclosed in
a sealed envelope with postage thereon fully paid, in the United State mail at

7wCfS
yuCPxt)

addressed as follows:

-

^7/1 Xfla/v phrecf, Sa/Je oCC

So^nO/rbrm „ .p 0i $ojL
/7?£>
* /7-PJ€>£'°7Bilj /f■ixTS^^^y

ted/eri

Btuszro rr* * ^

^

''TZ/moaZs

I declare under penalty of perjury under the law's of the State of California that the
foregoing is true and correct, and that this declaration was executed on
(date) 0)7Id. n/ztJpj) , at

/ /
Type or print name
Signature

1
,,

, California.
7Zi

JSe^Nt o
& Cy

% *i
S

IDEAN 5-0000000081

*

STATE OF CALIFORNIA
Division of Workers’ Compensation
Workers’ Compensation Appeals Board
CASK NO.: ADJ8009847 (MK); ADJ83862I7

FAIZAH DEAN

v.

SOUTHERN CALIFORNIA EDISON
PERMISSIBLY SELF-INSURED

WORKERS’ COMPENSATION JUDGE:
DATE OF INJURY:

ROBERT B. HILL
2/15/2010; 7/13/2009 to 11/12/2010

REPORT AND RECOMMENDATION
ON PETITION FOR RECONSIDERATION

INTRODUCTION
Applicant, in pro per. has tiled a timely and verified Petition for Reconsideration
challenging the Joint Findings and Order of 1/14 2020.
Petitioner seeks reconsideration on the following grounds:
1. The evidence does not justify the findings of fact;
2. The findings of fact do not support the Order. Decision, or Award.

II
CONTENTIONS
Applicant's selected format for her Petition is unique, and the points of contention are
difficult to interpret. However, the court understands her points to be as follows:
1. It is the defendant's burden of proof to establish that discrimination did not exist as
defined by Labor Code Section 132a:

Document ID: -7467788649782837248
|DEAN 5-000000009T

That her cases are to be viewed as ''continuous'' based on the defendant's voluntary
provision of benefits, lor which there would not be a bar based on the statute of
limitations:
3. While not set forth in the initial portion of her pleadings, she has discovered "new
evidence material":
4. While admitting to employment with this defendant employer from 7/13/2009
through 11/14-2010. there is a threshold issue of employment.

As of this date, a response has not been received from the defendant.

HI
FACTS
Faizah Dean, born 9/19/1975. as a lineman, occupational group number 380. at various
locations in California, while employed by Southern California Hdison. permissibly selfinsured, claims the following:
•

ADJ8009847 (MF)-claimed to have sustained injury on 2/15'2010 to her back.

•

ADJ838621 7-during the period 9/15/2009 to 9/15/2010 (later amended to 7/13/2009 to
11/12/2010) claimed to have sustained injury to her internal system, vaginal areas.
blurred vision, reproductive organs, psyche and back.

The companion case ADJ8386218 was dismissed as being duplicativ e in part of the
current case AD.I8386217. and the parts of body in AD.18386217 otherwise amended as set
forth above (see Minutes of Hearing 4/6/2015).

FAIZAH DEAN

IDEAN 5-OOOOOOOloT

ADJ 8009847
Document ID: -7467788649782837248

A joint Findings and Order as to the two active cases issued on 12/13 2017. finding that the
applicant did not sustain injuries as alleged, and further reserving jurisdiction of the panics'
respective petition for costs/sanctions. Applicant sought reconsideration, with the Opinion and
Order Denying Petition for Reconsideration issued 2/22/2018. The applicant then sought a
Petition for Writ of Review. The Order Denying Petition for Writ of Review issued 6-'14/2018
(see EAMS Document No. 67577705).
Currently at issue is the applicant's allegation that her mow ) former employer Southern
California Edison violated the provisions of Labor Code Section 132a.
The original Petition under Labor Code Section 132a was dated 9/28/2012. though not (fed
by the applicant until 2.1/2013 (see LAMS Doc ID 46601014). At the time of Trial on
6/25/2018. it was noted by the court that the amended "Application for Discrimination Benefits
Pursuant to Labor Code Section 132(af dated 5 7 2018-tand fled that same date) was lacking
the required verification as required under Rule 10450(c). The court also noted that Labor
Code Section 132a(4) itself referred to the requirement of filing of a "petition" to commence
proceedings. Further noting that the failure to comply with the verification requirement
constituted a valid ground for summarily dismissing or deny mg such petition, the court further
noted the holding in the significant panel decision lorres v. Contra Costa Schools Insurance
(2014) 79 CCC 1181: 2014 Cal. Wrk. Comp LEXIS 111 (in dealing with IMR Appeals
requiring such verification) that the applicant should be afforded a reasonable amount of time
to cure this defect. As. such, this case was ordered off calendar and the applicant given until
the end of work day 7/16/2018 (thereby allowing 20 day s) to file such verification (see Minutes
of Hearing 6/25/2018).
Such verification was filed 6/25-2018 (see LAMS Document ID 6/450592.)

1'AIZAH DEAN

IDEAN 5-0000000111

ADJ8009847
Document ID: -7467788649782837248

The amended Application raises the following as alleged employer's violation of Labor
Code Section 132a:
1. That on 8/17/2010 she was suspended with "just cause", and that she believed the
treatment toward her was based on ''gender difference after she was suspended with
cause". [Page 2. line 6). Further, that based on the collective bargaining agreement
between this employer and her union IBEW Local No. 47. that her employment is
not "at will" and that her termination can be only "for cause". [Page 12. lines 7
through 9J.
2. That on 8/19/2010. a meeting was conducted to include herself, and the company's
Eric Emery. By ron Redd, and Tyrone Chamois to review the Performance Action
Plan and Reinstatement Letter [Page 2. line 22]. During this meeting, and in the
reinstatement letter, work issues to include insubordinate behavior, safety rule
violations and tardiness were not. [Page 3. line 10 j.
3. That on 8/24/2010. and after seeking a doctor's advice on 8 '23'2010. she reported
her injuries to her supervisor and spoke to him about her back pain, eye strain, and
vaginal swelling and irritations associated with the unsanitary condition in the filed
when working using toilet bag systems. [Page 3. lines 15 through 23 and later page
7. lines 6 through 8]. Further, she asked for better accommodations in the held, that
her lower back pain seemed aggravated by her use of the line boots to do
groundwork, and that she reported blurred vision and heavy pressure and related
symptoms [Page 3. line 26. through page 4. line 6j.
4. That later that day. she met with the employ er's investigator Keith Dobson about
investigating gender discrimination in the department, and later on 9/9/2010 she

FAIZAH DEAN

IDEAN 5-0000000121

AD.18009847
Document ID: -7467788649782837248

reported to Dobson that Robert Delgado, identified as the son of Ron Delgado
(identified as president ol'IBEW Local No. 47 SC'F Troubleman) telling her "l need
to go back to "marry maids and do some housework." |Page 4. lines 9 through 17.]
5. That on 9/15/2012 (2010?) she was removed from the apprentice program [Page 4.
line 201.
6. That on 11/13/2010 there was an exit interview which included herself, the manager
of the Department Erik Emery and Ron Delgado ol the union. [ Page 5. lines 1
through 3].
7. That she was removed from the apprenticeship program after having met with
Dobson on 9/9 2010 "about gender discrimination in the policies and procedures of
the apprenticeship program.” [Page 5. lines e through 9|.
8. That she was not allowed to rebid for the apprenticeship program in spite of the fact
that she had seniority and was qualified as a Groundman A. and that site was
otherwise blocked from bidding and placed on non-paid leave. [Page 5. lines 10
through 21].
9. That she then bidded for the position of Groundman A-3 but was not offered this
position in spite of the fact that she was qualified. [Page 5. lines 23 through 26).
10. That was offered a lower paying job as meter reader although it was 70 miles from
her home, and the reduction in pay was not suihcicnt to co\ct ne petsonal expenses
[page 5. line 27 through page 6. line 3].
11. That she w as rejected from the planner job "because of seniority". | Page 6. line 4],
12. That on 1/7/201 1 she was e-mail information about the scheduling and confirmation
of the Substation Apprentice lest on 1' 13/20 i 1. which she thought was odd and

FA1ZAI1 DEAN

IDEAN 5-000000013r

ADJ8009847
Document ID; -7467788649782837248

she was terminated on that date. [Page 5. lines 5 through 7j. and that on 1 "11/2011
Emery had e-mailed her not to come in for the test which coincided with the
employer's hav ing received the CalOSllA complaint |page 5. lines 10 through 131.
13. That she believes that her not being allowed to take the apprentice test was
retaliation tor the filing of the CalOSllA complaint. SCR internal investigation,
discrimination in employment and worker's compensation, and wrongful discharge
in violation of public policy. [Page 7. lines 3 through 5 |.
14. 1 hat on 2/27/2011 she was terminated from her subsequent employment Par
Electric (an 1BEW contractor). [Page 5. line 211.
15. 'I hat the employer should be estopped based on its conduct from raising the defense
of the statute of limitations.
At the time of Trial on 9/27/2018. the applicant testified. The court adv ised on the record
the requirements ol Rule 10447. and that the presentation of the case would be limited as to the
allegations as set forth in the Amended Petition tiled 5/1/2018. the defendant's Answer filed
5/21/2018'. and the applicant's replies of 7/3/2018 and 7/5/2018.
During the morning session, the applicant confirmed that here employer was first made
aware of her claim on 8/24/2010. with the presentation of the work status report from Kaiser
dated 8/23/2010. Much of the direct examination at this point w as the court's direction, to
cover the pertinent portions of her Petition as outlined above, and to determine the basis for her
contentions that the employer's actions were in relation to her workers' compensation claim (or
intent to tile such a claim). Up to this point, and based on what she described as part of
“deductive reasoning", several events were outlined which actually predated the employer's
notice to include her suspension on 8/17/2010 and reinstatement on 8-19 2019. Her testimony

TAIZA11 DEAN

jPEAN 5-0000000141-

AD.18009847
Document ID: -7467788649782837248

at times was rambling and not cohesive at her contentions, and at times referred to other acts of
perceived discrimination (e.g. gender discrimination), or to parties not named in this action
(e.g. her union IBEW #47 and subsequent employer Par Electric).
This matter was continued to 1 I'd 2018. to allow her to present her additional testimony
and to proceed with the testimony of the witness line Emery.
The proceedings on 11/1'2018 commenced with the applicant's continuing testimony.
which immediately became contentious between the parties and unfocused as to the
applicant's contentions as set forth in her amended Petition. After review with the
parties and on the court's own motion, defense witness Eric Emery was called out of
order to establish key dates and actions undertaken by the employer, in an effort to
provide more structure as to the presentation of the case.
him a copy of her physician's work status report. The employer interpreted this as the
reporting of a claim of injury of on or about 2/15/2010. for which a claim was set up. a delay
issued followed by a denial.
In his testimony. Emery recounted the events leading up to a meeting of 9/10/2010. at
which time the applicant was suspended (with pay) from the lineman apprentice program due
to performance issues, primarily documented in the daily logs for which both the applicant
retained the original and the employer retained a copy. This included such issues as the
purported improper set up of equipment and tardiness. This resulted in her being placed in the
60-60 plan, with the first 60 days to include a performance improvement plan, during which
time she was placed in a groundsman position at the pay scale for the lineman apprentice step
1. However, based on the failure to improve, the applicant was terminated from the program on
11/14/2010 (a later notice would refer to 1 HI 5/2010). at which time she was placed on unpaid

FA!/Ail DEAN

IDEAN 5-000000015T

A DJ8009847
Document ID: -7467788649782837248

leave with access to company facilities for purposes of looking for job postings within the
company. At one point, Emery had offered the position of meter reader in Yucca Valley, w ith
his noting that her class "A" license would allow her to operate the heavier equipment and
increase her mobility within the company. However, she declined this offer indicated she was
then employed by Par Electric.
As direct examination of tins witness was not completed, the matter was continued to
12/5'2018. Due to the unavailability of a court reporter, the matter was continued to 1 '2/2019.
later continued to 2/21/2019 due to the unavailability of a court reporter.
At the time of Trial on 2/21/2019. continuing testimony of the witness Eric Emerv was
heard.
His testimony focused on the applicant's participation in the apprentice lineman program in
2010 (noting that previously she had held the position of a groundsman). Further noting that
this program consisted of six steps, the applicant did not complete a single step leading up to
her remov al Irom the program on 9/1 5/2010 for unsafe work practices and failure to followdirections. A meeting was conducted which included the applicant, the witness, the manager
Byron Redd and the union shop steward (this witness would later testify that there was a list
maintained of such stewards, and the actual selection for the meeting was made by the
employer on a random basis as to which steward was available). At the time, the applicant was
placed on a "60/60" program, in which for sixty days she would be allowed to bid for another
position within the company for which she was qualified, and during which time she remained
on a paid status based on her salary level upon entering the lineman program), followed bv
another 60 days in which she retained the right to bid but on an unpaid status. This program
was part of the employer’s policy. At the end of the first 60 days, he had become aware that

FA 17AH DEAN

ADJ8009847

Document ID: -7467788649782837248
|DEAN 5-0000000161

the position of a meter-reader had become available in Yucca Valley, which he relayed to the
applicant who declined consideration of this position as she w as then employed by another
company. Originally, the second 60 days on unpaid status was to have ended 1 12 20! 1. but
was extended to 1 •'20/2011 at which time she was terminated for failure to secure a new
position. At the time of the original removal front the apprentice program he was unaware of
her prior claim as outlined in the Kaiser work status report of S'24/2010, nor at any time did
she indicate that her inability to participate in the program was related to that alleged injury.
This witness testified in a truthful and credible manner, and confirmed the employer's
policies and their application to this employee in a non-discriminatory manner.
At the time of Trial on 4/20/2019. the defendant waived further examination of the witness
Erie Enter)'.
Defense witness Byron Redd vs as called, who testified that he was the applicant's
supervisor for a period of time in 2010. In terms of the apprentice program in issue, he
testified that he himself had participated in that program from 1994 through, 1997. He further
testified that prior to the applicant's entry into the program, an action plan had been prepared
due to the applicant's unsatisfactory job performance (Defendant's Exhibit "V"). He also
confirmed that he had been aware of the applicant's workers' compensation claim on
8. 24/2010 when he was presented with the medical status report of Dr. Dinh dated 8/23/2010
(Applicant's Exhibit "20"). and that at the time of that meeting she had been provided the
workers' compensation claim packet pursuant to company policy Noting that she had been
accommodated pursuant to Dr. Dinh's recommendation, and was not required to wear the
•'climbing boots" referred to in his report that were aggravating her condition, he also
confirmed that she was not treated any differently than other employees.

FAIZAH DEAN

IDEAN 5-000000017T

AD.18009847
Document ID: -7467788649782837248

During the afternoon session, the defendant completed direct examination of this w itness.
At this point, applicant moved to rc-open the record and submit additional evidence so as to
impeach and/or rebut the testimony of witnesses Tmery and Redd. 1 o allow the applicant lime
to formalize her motion into a Petition, to include a designation ol'those portions of the
proposed additional record to support her contentions, the matter was continued to 7/1,2019.
The matter proceeded to Trial on 7/1/2019. The applicant initially advised that her
Petition to Re-open the Record had been mailed 6 28/2019. although had not yet been received.
The applicant’s cross-examination then proceeded ol Byron Redd, which continued to be a
highly contentious matter between the parties.
Critical to his testimony was the Kaiser medical note dated 8/23/2010 outlining certain
work restrictions was received on 8/24/2010. Prior to that lime, an initial write up had
occurred as to the applicant’s participation in the lineman apprenticeship program on
7/15/2010. which was followed by the actual removal from the program on 9 15/2010. 1 lis
testimony also included a distinction between a "repeat" program (where the removed
apprentice is allowed to bid for a position within the company, and at a later time re-apply lor
the apprenticeship program) and the “60/60" program, where the employed is allowed to look
for other work within the company whale cm paid status lor 60 days, followed by another 60
days on unpaid status while this search continued. In these circumstances, the employee is not
allow-- to re-apply for the apprenticeship program. During the course of his cross-examination,
the applicant presented several documents which purportedly attempted to show that the
actions undertaken from the apprenticeship program, but this witness continued to testify in a
truthful and consistent matter that the company policies had been followed, to included her
placement on the "60/60" program.

FA1ZAH DKAN

|DEAN 5-0000000181'

ADJ8009847
Document 11): -7467788649782837248

As this witness (as well Erie Emery) had been taken out of order to allow the establishing
of key time points as pan of the applicant's allegations, the matter was continued to 8/7/2019
to allow the applicant's continuing direct examination and consideration of her Petition to Re­
open the Record.
The parties re-appeared for Trial on 8/7/2019. These proceedings were dcia\ed due to the
appearance of new defense counsel, and the lack of a properly executed Substitution of
Attorneys.
While the defendant initially posed an objection to the WCAB jurisdiction over the pending
Labor Code Section 132a action as the previously issued Findings and Award pertaining to the
case-in-chief issues did not reserve jurisdiction, it was determined that the Labor Code Section
132a issue was actually bifurcated by Order of Judge Robin Woolsey (the prior assigned MSC
judge) on 1/5/201 5, and thus the objection with withdrawn.
After further review with the parties, several documents were located in HAMS which
could not previously be located, to include the following:
1. Petition to Re-Order defense witness Eric Emory (misdated 9/28 '2019)
[CAMS Document ID 705390211).
2. Defendant's Objection dated 7/25 2019 ['HAMS Document ID 29821995],
3. Applicant's Objection to Order Quashing SDT dated 10/282018 | EAMS
Document ID 68566621 ].
Due to the delay in proceedings, and the applicant's request to file a second Petition to ReOrder defense witness Byron-Redd (she was given until 92/2019 to do so), the matter was
continued to 9/9/2019.

HA 17. A J 1 DEAN
IDEAN 5-0000000191

AD.I8009847
Document ID: -7467788649782837248

Prior to the rc-scheduled Trial date, filed her Petition to Reorder Erik Emerv dated
9/3/2019 fEAMS Document ID 71032972]; at the time ofi'Trial the defendant confirmed their
receipt of this document on 9/6/2019. and were given until 9/2.3 fiX) 19 for purposes of filing
their response. (At the time of Trial, this was included in the disposition and the defendant
Ordered to have this witness available on an on-call basis for the continued Trial date of
10/24/2019).
A full day of the applicant's direct examination proceeded on 9'9'2019. In iter testimony.
the applicant referred to a number of purported irregularities on the part of the employer in
implementing its policy and procedure manual, not only with her regularly assigned position of
groundsman A-3 but also as a lineman apprentice. She would also testify as to several
purported unsafe conditions which were relayed to both the Occupational Safety and Health
Administration (OSHA) as well as the Department of fair Employment and I lousing. She
would also dispute the handling of her removal from the apprentice program as well as her
ultimate termination from this employer, and her distrust of her union 1BEW #47 (and
particularly its president Ron Delgado). However, noteworthy is that while she identified
several potential areas of concern with this employ er. nothing was established in this testimony
to establish discrimination under Labor Code Section 132a. with these concerns more
appropriate falling under the jurisdiction of other governmental agencies.
So as to allow the completion of her direct testimony and the defendant's crossexamination. and to allow'the court to rule on her motion to re-open the record for additional
witness testimony, the matter was continued to 10*24 2019

A

At the time of Trial on 10/24 '2019. the applicant's testimony was completed. This
included her acknowledgement of her removal from the apprenticeship program, the original

FA1ZAH DEAN

IDEAN 5-0000000201*

AD.I8009847
Document 11): -7467788649782837248

60 days given to find another job within the company, followed by another 60 days of unpaid
leave. She also acknowledged the ruling by the U.S. District Court granting the defendants*
Motion for Summary Judgement (which included this employer), and the finding that the
employer's actions were neither retaliatory nor discriminatory, based on her poor performance,
although she would indicate on re-cross-examination that this was in the context of her OSH A
complaint only. She would continue to argue that the original claimed date of injury of
2/15/2010 was incorrect, but would roughly coincide with her reporting of her claimed workrelated problems. As to the defense of the statute of limitations, she w ould acknowledge that
her filing of her Petition under Labor Code Section 132a not being filed until 2/1/2013. she
responded that she had several other legal actions pending at the time including the U.S.
District Court. OSHA and FHHA. and as the result did not focus on this issue, but through her
continuing discover)' and investigation of the corollary legal actions determined that she should
proceed with this action.
The applicant's Petition to Re-open the Testimony of lirie Pinery was granted and the
matter continued to 12/ i 2/2019.
At the time of Trial on 12/12/2019. continuing cross-examination of the w itness Emery
continuing. When it became apparent that the line of questioning was unfocused and outside
the scope of proper cross-examination, the court intervened. Based on his testimony, he
understood that in the prior proceedings on this matter he had had dual roles, both as a
potential witness and employer designated representative. He also testified that he had only a
"vague recollection" of two documents dated 1 1/12/2010 and 1 20/2011. to which the applicant
objected on the basis of lack of authentication. He would also testify that in providing the

FA1ZAH DEAN

|DEAN 5-0000000217

ADJ8009847
Document ID: -7467788649782837248

applicant her workers’ compensation packet, that he had acted within company policy as set
forth in the Accident Prevention Manual Revised October 2007 (Applicant’s Hxhibit "27”).
After offering the parties an opportunity to submit post-Trial Briefs, which the parties
declined, the case stood submitted for decision. Subsequently, the Joint Findings and Order
issued 1/14/2020 for which the applicant seeks Reconsideration.

IV
DISCUSSION
Several key issues presented at Trial were addressed in the Opinion on Decision (Labor
Code Section 5313). with decisions reached as follows:

DEFENDANT'S PETITION TO QUASH SUBPOENA DUCES TECUM■ ORDER AND
APPLICANT'S OBJECTION THERETO AND MOTION TO SET ASIDE ORDER:
This matter was the subject of the Mandatory Settlement Conference set for 5/1 ''201 8
(LAMS Doc ID 66926604). at which time it was set for Trial on the issue of the applicant
amended Petition dated 5 1 '2018. This case then proceeded to its initial Trial of 6'25/2018. It
was after the initial Trial that the applicant Subpoena Duces Tecum issued on 10/25/2018. as
set forth in the defendant’s Motion to Quash dated 10/25/2018 (LAMS Doc ID 27638111), and
the applicant’s objection filed 1 1 ■ 16 2018 (EAMS Doc ID 68701859.)
The question here is whether the applicant has sustained her burden of proof in
establishing good cause for reopening of discovery after the MSC and alter the initiation of
Trial pursuant to Labor Code Section 5502(e)(3). While the applicant has submitted the
validity of a number of documents offered by the defendant as exhibits, nothing is set forth in

I’AIXAH DEAN

IDEAN 5-0000000221

AD.I8009847
Document ID: -7467788649782837248

said Petition so as to establish such good cause to reopen the record, and thus the Order
Quashing SDT dated 10/26/2018 (EAMS Doc ID 68495158) will remain.

ADMISSION OF EXHIBITS:
The applicant had raised the validity of exhibits of letters dated 11/12/2010
(Defendant's Exhibit ”HH") and 1/20/2011 (Defendant's Exhibit "K.K."). Noting such
documents were unsigned and otherwise unauthenticated, and the testimom of witness Emery
that he has only a ‘’vague memory" of such documents, they w ere excluded. Otherwise.
Defendant s Exhibits "S through "OG , "II

and "JJ' were taken into evidence.

STA TUTE OF LIMIT ATIONS:

Labor Code Section 132a(4) provides as follows:
" Proceedings for increased compensation as provided in paragraph f). or for
reinstatement and reimbursement for lost wages and work benefits, are to be instituted
by filing an appropriate petition with the appeals hoard, hat these proceedings may not
he commenced mote than one year from the discriminatory act or date of termination
of the employee. The appeals hoard is vesica/ with fail power, authority and
jurisdiction to try and determine finally all matters specified In this section subject only
to judicial' review, except that the appeals hoard shad have no jurisdiction to try and
determine a misdemeanor charge. The appeals hoard may refer and any worker may
complain of suspected violations of the criminal misdemeanor provisions of this section

FA1Z.A11 DEAN

IDEAN 5-0000000231

ADJ8009847
Document ID: -7467788649782837248

to the Division of labor Stamfords Enforcement, or directly to the office of the public
prosecutor.

The applicant's original Petition under Labor Code Section 1.52a. while dated
9/28/2012, was not filed until 2/1/2013 (BAMS Doc ID 46601014). This was followed by the
filing of the amended Petition and subsequently verified Petition 6'26 2o!8 (BAMS Doc ID
6740592). A review of the amended Petition, more detailed in its listing of alleged misconduct
bv the employer commences with events on 8/17/2010 and ending 2/27.201 1 with her
termination from the subsequent employer Park Electric (which arguably has nothing to do
with discriminatory misconduct by her employer Southern California Edison. Even it the latter
were construed as part of such misconduct, the filing ol the Petition under Labor Code Section
132a on 2/1/2013 would be outside the prescribed one statute of limitation under Labor Code
Section 132a<4). and thus would be barred. The court further considered the original filing of
the Application for Adjudication of Claim in ADJ8009847 (Ml ) (f/.AMS Doc ID a9a97567)
and ADJ8386217 (BAMS Doc ID 39387657). noting that neither referenced discriminator)
conduct pursuant to Labor Code Section 132a. I bus. it was found that this action is outside the
prescribed one year statute of limitations pursuant to Labor Code Section 132a(4). and thus
barred.
EMPLOYER’S ALLEGED VIOLA TIPIS OF LA BOR CODE SECTION /32a:
Labor Code Section 132a provides:

"It is the declared policy of this stale that there should not be discrimination against
workers who are injured in the course and scope of their employment.

BA1ZAH DEAN
IDEAN 5-0000000241

ADJ8009847
Document ID: -7467788649782837248

Iszooooooo-s Mvaal
8t’6a'8:8/.66988U91X- :(.II uiaiumoa
If86008 fCIV

XV Id HVZIVJ

npout jo/hiifunnj DD.iojdutD dif/ ds/ipdac/ DD.iojdutD an isuindn DinututuDstp j,utunut
Xitn at .to .xH.tnt/Dsip oi -imsoD.t ./At/in Xttn .mi .to uttijutD.id ui dsipj n .to uoimfpMr).)
lo Xt/nuDd .inputt JDXojdiuD po.msat an sttDin.xiij/ .to si.)?.iip -sDstA/m imp .idjusui .iuy tf-i

JD.in/dUtD ,vp jo ftl.xn ,vp .(</ pDSIWD SlljDUDq fj.iOM pit))

ISO] .tOf HtDUtDS.IIUjUUD.I

pun jitDiuDinisuiDj OI pnppurt nq pops DD.iojdutD ?qi pun -jounDuiDpxnu n Jo Xipnd
si p.tnoq s/txiddn Dip .uo/Dq dsod v DD.iojdutD joipoun at .y'psDi oi suopuDiut jdi/ jo
Sllj U.wOlOf Dpnilt JO pDltpSDl DD.io/dlltD Dljl DSIWDiHj DD.iOjdUID XlW ISUjnXn SDIOUUULIDSljl
jDuunui Xun ui jo -DX.mijDsip oi suDinDjqt jo sd^.iih/dsi/d oq.n JD.WjilutD Miy fcj

f j j ifdn.tdpjnd to pDpi.uud s/sod pun uoiinsimhuoo poftnoj.nu Dip oi i.xifqns pun
jounouiDpsiiii n fo Xpind si iuduidpids .to -p.tn.nn 'oitun.i n /idaiddd.i snq ddao/Jiud Dip
DsiwxHj jo -iiopnDipiilpn .mf uopn.vjddn tin .to jD.io/duiD jdi/ jo siq tpi.n uoqnsitDduiOD
.ml utiniD o D/p <>/ ttopuDiui .iDij jo sit/ u.noio/ dpoiu jo popfsnit ,n/s jo di/ Dsiw.iDq
DDAOjdlUD on od.lPI/DSip OI lltnOD.I .IDlf/O AUP JO/'.IO UtUlttlDjd III DSiOJ O JO UOpnj/DDltnD
fo AijPUDd .iDpuii p.xtnsui no xirDioDJi/i jo -siJD.iip SDsiApn imp .idjusui Any ([)

JD.iojuUID Dljl fo X/.V7 Dljl :Uj pDSIlPD SlljDUDq SjJO.W pill?
SDXpm ISOj JOf illDWDS.tnqWlDJ pun lUDUtDIDIXUlDJ oi pD/iUlID Dp OSjl) JjPljS DDAOjdlUD IjDUS
.iuy -(t)$£$i s.inpop XiftJ p.xmtnif o.m fo ssddxd ui nut sDstiDdxD pan sisod qp.u .idi/iaXoi
'(()()()'()!$) s.tn/jop punsuoiji udi uniji d.ioui iudad ou ui wq fjnij-DUo Xq pdsodjdui
,yq pnijS UOIlPSUDtfuiOD .V DD.iOjdu.ID ,Vjl pun JOUPDIUD/lSjUl I)fo XljUlo SI 'ItlDUIDjllDS
.to -p.tn.no 'dupn.i n pDAiDDD.i sntj DD.iojdutD di/i DsuoDDq .to -uoijn.vpnfpn jofuopnot/ddn
UO ,IO JD.iojdlttO .ID!./ JO Sllj Ijlj.n UOUOSUDdlUOD JOj Ultn/D n Dllfoi ttOtlUD/Ul JDlj
jo

sitj u.noiOj npnttt .to pD/tfsnq Dijs jo di/ DSimDDq DD.iojdutD Aim tsuinXn sDinutuu.iDsip
jDuunut Xun at jo -Dp./m/Dst/? <» xudiodji/i jo sDd.inijDsip oq.n .tD.iojdiuD .iuy (j)

i

known his nr her intention in testify in another employee 'v ease before the appeals
board, is guilty of a misdemeanor.

Rule 10447 further provides as follows:
"Any person seeking to initiate proceedings under Labor Code Section 132a other than
prosecution for misdemeanor must file a petition therefor setting forth specifically and
in detail the nature o f each violation alleged and facts relied on to show the same, and
the relief sought. Each alleged violation must be separately pleaded so that the adverse
party or parties and the Workers' Compensation Appeals Board may be fully advised of
the specific basis upon which the charge is founded.

The Workers' Compensation Appeals Board may refer, or any worker may complain of,
suspected violations of the criminal misdemeanor provisions o f Labor Code Section
132a to the Division of Labor Standards Enforcement or directly to the Office of the

Public Prosecutor. "

As was noted in Judson Steel Corporation v. WCAB (Mae.se) (1978. 43 CCC 1205.
"(Labor Code Section 132a) did not compel an employer to ignore the realities of doing
business by reemploying unqualified employees or employees lor whom positions arc no
longer available.
In reviewing the full record, to include the pleadings, witness testimony, and admitted
exhibits, the court noted that a number of allegations were made as against in the employer in
the form of unfair labor practices, violation of collective bargaining agreement(s). and other

FAIZAH DKAN
IDEAN 5-000000026}

ADJ8Q09847
Document ID: -7467788649782837248

discriminatory basis to include race and gender. However, the threshold considered was
whether the employer engaged in discriminatory conduct on the basis of the applicant having
filed (or made known an intent to file) a workers' compensation claim. None of the submitted
evidence would establish such a conclusion under Labor Code Section 132a. In fact, the
employer's actions as against this employee were considered in different tribunals in the
context of other alleged misconduct, with the finding that the employer had either acted
appropriately or had not acted inappropriately.
Thus, in the event that the statute of limitations was not considered a bar. it was found
that the applicant had not sustained her burden of proof to establish discriminatory conduct
under Labor Code Section 132a.
The court is not clear as to the applicant's contention that these arc ''continuous"
actions for which there should be no bar as to the statute of limitations. The statute is quite
clear, and based on her description of alleged discriminatory acts her original Petition as filed
under Labor Code Section 132a (noting that an amended Petition was filed to include the
required verification), said original Petition was untimely. However, the court further
considered its findings on an alternative finding that the statute of limitations was not a bar,
leading to the next point.
While the applicant contends that it is the defendant’s burden of proof to disprove
discriminatory acts under Labor Code Section 132a. the court finds nothing in the statutory.
regulatory or case law to support this contention. And as noted in the Opinion, while the
applicant had a number of alleged issues with her employer, none were found to fit w ithin the
category of discriminatory acts within the meaning of the statute.

FAIZAII DEAN

IDEAN 5-000000027T

ADJ8009847
Document ID: -7467788649782837248

SERVICE:

CA MED MANAGEMENT MONTEBELLO. US Mail
EAGLE EYE IMAGING FONTANA. lrS Mail
HDD SD1 SAN BERNARDINO. US Mail
FAIZAH DEAN. US Mail
GOLDSTAR FINANCIAL SANTA FE SPRINGS. US Mail
KARLZEN HUTCHINSON TORRANCE. US Mail
ORACLE MED COLLECTIONS POMONA. US Mail
PASEO PHARMACY. US Mail
SOUTHERN CAL EDISON ROSEMEAD. US Mail
VERBATIM RX PHARMACY POMONA. US Mail

FAIZAH DEAN

|DEAN 5-0000000281

ADJ8009847
Document ID: -7467788649782837248

1

WORKERS’ COMPENSATION APPEALS BOARD

2

STATE OF CALIFORNIA

3
Case Nos.
4

FAIZAH DEAN

5

Applicant,

6

vs.

7

SOUTHERN CALIFORNIA EDISON;
Permissibly Self-Insured,

ADJ8009847
ADJ8386217
ADJ8386218
(Riverside District Office)

OPINION AND ORDER
GRANTING PETITION FOR
RECONSIDERATION

8
Defendants.
9

10

Reconsideration has been sought with regard to the decision filed on January 14, 2020.

11

Taking into account the statutory1 time constraints for acting on the petition, and based upon our

12

initial review of the record, we believe reconsideration must be granted to allow sufficient opportunity to

13

further study the factual and legal issues in this case. We believe that this action is necessary to give us a

14

complete understanding of the record and to enable us to issue a just and reasoned decision.

15

Reconsideration will be granted for this purpose and for such further proceedings as we may hereafter

16

determine to be appropriate.

17

For the foregoing reasons.

18

IT IS ORDERED that Reconsideration is GRANTED.

19

IT IS FURTHER ORDERED that pending the issuance of a Decision After Reconsideration in

20

the above case, all further correspondence, objections, motions, requests and communications relating to

21

the petition shall be filed only with the Office of the Commissioners of the Workers' Compensation

22

Appeals Board at either its street address (455 Golden Gate Avenue, 9th Floor, San Francisco, CA 94102)

23

or its Post Office Box address (P.O. Box 429459, San Francisco. CA 94142-9459), and shall noi be

24

submitted to the district office from which the WCJ’s decision issued or to any other district office of the

25

Workers’ Compensation Appeals Board, and shall noi be e-filed in the Electronic Adjudication

26

Management System (EAMS). Any documents relating to the petition for reconsideration lodged in

27

violation of this order shall neither be accepted for filing nor deemed filed.

|DEAN 5-000000029]'

1

All trial level documents not related to the petition for reconsideration shall continue to be e-filed

2

through EAMS or, to the extent permitted by the Rules of the Administrative Director, filed in paper form.1

3

If, however, a proposed settlement is being filed, the petitioner for reconsideration should promptlv notify

4

the Appeals Board because a WCJ cannot act on a settlement while a case is pending before the Appeals

5

Board on a grant of reconsideration. (Cal. Code Regs., tit. 8. former § 10859. now § 10961 (eff. Jan. 1,

6

2020).)
WORKERS’ COMPENSATION APPEALS BOARD

CHAIR

8
9

katherinf

/s/

ZALEWSKI

10
11

I CONCUR,

DEIDRA E. LOWE

12

13

Is/

14

JOSIz H. RAZO

15
16

Is/

17

18

DATED AND FILED AT SAN FRANCISCO, CALIFORNIA

19
20

21
22

’

■

SERVICE MADE ON THE ABOVE DATE ON THE PERSONS LISTED BELOW AT THEIR
ADDRESSES SHOWN ON THE CURRENT OFFICIAL AD ESS RECORD
/

FAIZAH DEAN
KARL ZEN HUTCHINSON

'\
\

i

\

<

23
24
25

oo

26
27

' Such trial level documents include, but are not limited to, declarations of readiness, lien claims, trial level petitions (e.g.,
petitions for penalties, deposition attorney's fees), stipulations with request for award, compromise and release agreements, etc.)

DEAN, Faizah
IDEAN 5-000000030]

2

1

WORKERS’ COMPENSATION APPEALS BOARD

2

STATE OF CALIFORNIA

3
4

Case Nos.

FAIZAH DEAN,

5

Applicant,

6

vs.

7
8

SOUTHERN CALIFORNIA EDISON;
Permissibly Self-Insured,

ADJ8009847
ADJ8386217
ADJ8386218
(Riverside District Office)

OPINION AND DECISION
AFTER RECONSIDERATION

Defendants.

9
10
11
12

We previously granted reconsideration in order to allow us time to further study the factual and
legal issues in this case. We now issue our Opinion and Decision After Reconsideration.

13

Applicant in pro per seeks reconsideration of the Joint Findings and Order (F&O) issued on

14

January 14, 2020, wherein the workers’ compensation administrative law judge (WCJ) found in pertinent

15

part that applicant's Labor Code Section 132a1 petition is barred by the statute of limitations, that

16

applicant otherwise failed to present evidence sufficient to establish her prima facie claim, that there is no

17

good cause to set aside the October 28, 2018 order quashing applicant's subpoena duces tecum, and that

18

defendant s exhibits HF1 and KK are not admissible into evidence. The WCJ ordered in pertinent part

19

that applicant take nothing on her claim, that her motion to set aside the order quashing subpoena be

20

denied, and that exhibits HFI and KK are excluded from evidence.

21

Applicant contends that the WCJ erred on the grounds that the statute of limitations was tolled or

22

inapplicable because the alleged discriminatory conduct was “continuous." Applicant further contends

23

that defendant failed to meet its alleged burden of proof that it did not engage in discriminatory conduct.

24

Applicant also asserts that the WCJ erred by declining to set aside the order quashing applicant’s

25

subpoena duces tecum and by admitting exhibits HH and KK into evidence.

26
27

Unless otherwise stated, all further statutory references are to the Labor Code.

DEAN 5-0000000311

1

We received an Answer from defendant.

2

The WCJ filed a Report and Recommendation on Reconsideration (Report) recommending that
the Petition be denied.
We have considered the allegations of the Petition, the Answer, and the contents of the Report.

4

5

Based on our review of the record, and for the reasons stated below, we will affirm the F&O.
FACTUAL BACKGROUND

6

On February 1, 2013, applicant filed a petition for increased benefits pursuant to section 132a.

7
8

(132a Petition, February 1,2013.) 2

9

The record in EAMS reveals that the WCJ admitted the following exhibits into evidence: Notice

10

of Failure to Resolve Grievance, October 4. 2010; Reporter’s Transcript of Proceedings. Grievance No.

11

11-01-23397, September 28, 2011; OSHA Order Granting Party Status, April 9, 2013; OSHA Decision

12

of February 20. 2014; Complaint for Violation of Civil Rights (case number EDCV12-01435); and

13

Decision of USDC, February 4, 2014. (Exhibit 19, Notice of Failure to Resolve Grievance, October 4,

14

2010; Ex. 12, Reporter’s Transcript of Proceedings, Grievance No. 11-01-23397, September 28, 2011;

15

Ex. O, OSHA Order Granting Party Status, April 9, 2013; Ex. 16, OSHA Decision of February 20, 2014;

16

Ex. M, Complaint for Violation of Civil Rights, March 14, 2013; Ex. 21, Decision of USDC, February 4,

17

2014.)

18

The Notice of Failure to Resolve Grievance appears on defendant’s letterhead and asserts that

19

applicant filed a grievance contesting her September 15, 2010 removal from the apprentice lineman

20

position and seeking reinstatement and compensation for lost income. (Ex. 19, Notice of Failure to

21

Resolve Grievance, October 4, 2010.)

22

The Transcript of Proceedings memorializes an arbitration held on September 28, 2011, on the

23

issues of whether defendant wrongfully removed applicant from the apprentice lineman position and

24

terminated her employment. (Ex. 12, Reporter’s Transcript of Proceedings, Grievance No. 11-01-23397,

25

September 28, 2011, pp. 1,5.)

26
27

2 The petition is available in EAMS in case number ADJ8386217.

DEAN, Faizah
IDEAN 5-000000032]

2

1

The OSH A Decision contains a letter dated January 26, 2012 from an OSHA representative to

2

applicant acknowledging its January 5, 2011 receipt of applicant's complaint of defendant’s alleged

3

health and safety violations and advising that OSHA cited defendant for failing to provide workers with

4

acceptable toilet facilities. (Ex. 16, OSHA Decision of February 20. 2014, pp. 10-11.)

5

The OSHA Order Granting Party Status indicates that defendant appealed the OSHA citation and

6

the matter was resolved on November 8, 2012, subject to a petition for reconsideration. (Ex. O, OSHA

7

Order Granting Party Status, April 9, 2013, p. 1.)

8

The Complaint for Violation of Civil Rights contains various pleadings in a civil action brought

9

by applicant against, among others, defendant herein, and is described with more specificity below. The

10

first pleading in the exhibit is labeled “First Amended Complaint,-’ case number EDCV12-01435, and

11

filed-stamped December 21, 2012. (Ex. M, Complaint for Violation of Civil Rights, March 14, 2013, p.

12

E)
The Decision of USDC constitutes the minutes of the February 4, 2014 proceedings in the U.S.

13
14

District Court, Central District of California, case number EDCV12-01435, and includes the following:

15
16
17
18
19
20

On March 14, 2013, Plaintiff Faizah Nailah Dean filed a Second Amended Complaint. . .
[alleging] several claims against SCE [defendant Southern California Edison]: (1) a
“hybrid-’ claim, pursuant to 29 U.S.C. § 185, for . . . SCE's breach of a collective
bargaining agreement ... (2) a claim for wrongful termination based on sex and race, in
violation of Title VII of the Civil Rights Act of 1964; (3) a claim for wrongful discharge
in violation of California Labor Code § 6310(b); and (4) a claim for violation of the
Americans with Disabilities Act (“ADA”:), 42 U.S.C. § 12101, et seq. . . .
On May 1, 2013, the Court dismissed all of these claims, except the third claim for
retaliation in violation of California Labor Code § 6310. . . . On January 3, 2014, SCE
filed the SCE Motion, which seeks summary adjudication of the § 6310 retaliation claim.

25

Because these Motions dispose of all remaining claims in this action, this action is
DISMISSED with prejudice.
(Ex. 21, Decision of USDC, February 4, 2014, pp. 1-8.)
On December 13, 2017, the WCJ issued the following joint findings of fact:
1. [Applicant] ... as a lineman, occupational group number 380, at various locations in
California, while employed bv Southern California Edison, did not sustain injury of
2/15/2010 to her back [ADJ8009847(MF)J, or during the period 9/15/2009 to 9/15/2010
(later amended to 7/13/2009 to 11/12/2010) to her internal system, vaginal areas, blurred
vision, reproductive organs, psyche and back [ADJ8386217],

26

2. The parties’ respective petitions for costs/sanctions are reserved.

21
22
23
24

27

|DEAN 5-000000033]

3. All other issues are moot.
(Joint Findings and Order, December 13, 2017, p. 1.)
DEAN, Faizah
3

1
2

Also on December 13, 2017, the WCJ ordered that the parties’ respective petitions for costs or
sanctions be reserved and that applicant take nothing with respect to her injury claims. (Id.)

3
4

On January 5. 2018, applicant filed a petition for reconsideration. (Petition for Reconsideration,
January 5, 2018.)

5
6

On February 22, 2018, we denied reconsideration. (Opinion and Order Denying Petition for
Reconsideration. February 11,2018.)

7

On May 1, 2018, applicant filed an amended petition for increased benefits pursuant to section

8

132a. (132a Petition, May 1, 2018.) The amended petition alleges that defendant terminated applicant’s

9

employment on January 13, 2011. (Id., p. 6:6-7.)

10

On June 14, 2018, the Court of Appeal issued an order denying applicant’s petition for writ of

11

review of our order denying reconsideration. (Order Denying Petition for Writ of Review, June 14.

12

2018.)

13

On September 27, 2018, the matter proceeded to trial as to the issues of whether defendant

14

discriminated against applicant in violation of section 132a and whether applicant’s section 132a was

15

barred by the statute of limitations.

16

September 27, 2018. p. 2:14-18.)

17

18

(Amended Minutes of Hearing and Summary of Evidence,

Also on September 27, 2018. applicant objected to the admission of defendant’s exhibits T
through KK into evidence and the WCJ declined their admission as of that date. (Id., p. 5:20-21.)

19

At trial, applicant testified that defendant suspended her on August 17, 2010, that defendant

20

reinstated her on August 19, 2010, and that defendant was not aware of her industrial injury claim until

21

she presented her physician’s August 23, 2010 work status report dated on August 24, 2010. (Id., p. 6:7-

22

16.)

23

Applicant further testified that she was removed from defendant s lineman apprenticeship

24

program on September 15, 2010, and believes defendant’s adverse action was in part the result of her

25

worker’ compensation claim. (Id., p. 6:20-21.) She was placed on unpaid leave on November 13, 2010,

26

her union agreed to her January 20, 2011 termination, and she was later informed that she consented to

27

the termination by signing her last paycheck. (Id, pp. 7:38-42, 8:19-26.)
DEAN. Faizah

IDEAN 5-000000034]

4

1

On November 1, 2018. the matter proceeded to continued trial, and one of applicant's

2

supervisors, Erie Emery, testified that defendant had issues with applicant's job performance, including

3

safety issues based upon reports from approximately seven foremen. (Minutes of Hearing and Summary

4

of Evidence, November 1, 2018, pp. 5:13-17, 6:6-12.)^ These issues were the subject of a review held at

5

a meeting with applicant on July 15, 2010. {Id., p. 6:14.)

6

Defendant held a second meeting with applicant on August 15, 2010, and determined that

7

applicant’s performance during the preceding thirty days had not improved. {Id., p. 6:19-21.) Applicant

8

w'as

9

lineman apprentice program if she failed to improve. {Id., p. 6:23-26.) Defendant removed applicant

10

from the apprentice, lineman program on September 25, 2010 for poor work scores, failing to follow-

11

guidelines, and safety violations. {Id., p. 6:31-33.) Applicant was placed on defendant’s 60-60 program,

12

providing that she w'ould continue as a paid employee for sixty days so that she could seek another

13

position with defendant, but would not be permitted to return as an apprentice lineman. {Id., p. 6:44-7:2.)

14

Following the first sixty days, applicant was placed on unpaid leave and permitted continued access to

15

company facilities for the purpose of securing a job. {Id., p. 7:5-9.) On January 20, 2011, defendant

16

terminated applicant because she had not secured a job within the latter sixty-dav period. {Id., p. 7:24-

17

27.)

placed on another thirty day action plan and notified that she would be subject to removal from the

18

The matter proceeded to continued trial on February 21, 2019, April 29. 2019, October 24, 2019,

19

and December 12, 2019. (Minutes of Hearing and Summary of Evidence, February 21,2019; Minutes of

20

Hearing and Summary of Evidence and Order to Appear, April 29, 2019; Minutes of Hearing and

21

Summary' of Evidence, October 24, 2019; Minutes of Hearing and Summary of Evidence, December 12,

22

2019.) 4

23

On April 29, 2019, another of applicant’s supervisors, Byron Redd, testified that defendant

24

imposed an action plan upon applicant on July 15, 2010, based upon the low grades she had received

25

26

3 The Minutes of Hearing and Summary of E vidence are available in E AMS under case number ADJ8386217.

27

4 The minutes of these proceedings are available in EAMS under case number ADJ8386217.
DEAN, Faizah

[DEAN 5-000000035f

5

1

from the foremen overseeing her work. (Minutes of Hearing and Summary of Evidence and Order to

2

Appear, April 29, 2019, p. 6:5-9.) Applicant was told that if her performance did not improve the action

3

plan would be extended another thirty days. (Id.)

4

Mr. Redd further testified that defendant suspended applicant on August 17, 2010. for failing to

5

follow directives and safety documents and reinstated her two days later with an extension of the action

6

plan; however, applicant continued to receive low scores and to show problems with safety issues and job

7

knowledge. (Id., p, 6:10-24.) Within a week of her suspension, applicant presented the August 23, 2010

8

medical report in which she claimed industrial injury. (Id., p. 6:24.)

9

On October 24, 2019, applicant testified that she filed her original section 132a petition on

10

February 1, 2013. (Minutes of Hearing and Summary of Evidence, October 24, 2019, pp. 6:31,7:29-30.)

11

She further testified that the claims she raised against defendant in federal court were connected to those

12

raised before the WCAB and OSHA. (Id., p. 4:23-5:4.) The federal court action included a wrongful

13

termination claim against defendant. (Id., p. 6:33-34.) The reason that she did not oppose defendant's

14

motion for summary judgment of her federal court action was that she had other legal actions pending

15

and felt overwhelmed.

16

including OSHA, EEOC, and the U.S. District Court. (Id., p. 7:29-32.) She would redirect how she was

17

proceeding legally as she received new-' information. (Id., p. 7:32-33.) She “landed’" in this action

18

between her U.S. District Court action and OSHA actions. (Id., p. 7:43-44.)

(Id., p. 6:43-45.)

She brought claims against defendant in various venues,

19

In the Report, the WCJ writes:

20

The original Petition under Labor Code Section 132a was dated 9/28/2012, though not
filed by the applicant until 2/1/2013 (see EAMS Doc ID 46601014). At the time of Trial
on 6/25/2018, it was noted by the court that the amended “Application for Discrimination
Benefits Pursuant to Labor Code Section 132(a)” dated 5/1/2018 (and filed that same
date) was lacking the required verification as required under Rule 10450(e). The court. . .
afforded [applicant] a reasonable amount of time to cure this defect. As such, this case
was ordered off calendar and the applicant given until the end of work day 7/16/2018
(thereby allowing 20 days) to file such verification (see Minutes of Hearing 6/25/2018).

21
22
23
24
25

Such verification was filed 6/25/2018 (see EAMS Document ID 67450592.)
(Report, p. 3.)

26

At the time of Trial on 9/27/2018, the applicant testified. . ..

27

IDEAN 5-000000036]

[to] several events . . . which actually predated the employer’s notice [of her claim] . . .
including] her suspension on 8/17/2010 and reinstatement on 8/19/201 [0], Her
DEAN, Faizah
6

1

testimony at times . . . referred to other acts of perceived discrimination (e.g. gender
discrimination), or to parties not named in this action (e.g. her union 1BEW #47 and
subsequent employer Par Electric).

2
3

[Mr.] Emery recounted the events leading up to a meeting of 9/10/2010, at which time the
applicant was suspended (with pay) from the lineman apprentice program due to
performance issues, primarily documented in the daily logs for which both the applicant
retained the original and the employer retained a copy. This included such issues as the
purported improper set up of equipment and tardiness. This resulted in her being placed
in the 60-60 plan, with the iirst 60 days to include a performance improvement plan,
during which time she was placed in a groundsman position at the pay scale for the
lineman apprentice step 1. However, based on the failure to improve, the applicant was
terminated from the program on 11/14/2010 (a later notice would refer to 11/15/2010). at
which time she was placed on unpaid leave with access to company facilities for purposes
of looking for job postings within the company.
(Report, pp. 6-8.)

4
5
6
7

8
9

This matter was the subject of the Mandatory Settlement Conference set for 5/1/2018
(EAMS Doc ID 66926604), at which time it was set for Trial on the issue of the
applicant's] amended Petition dated 5/1/2018. This case then proceeded to its initial
Trial of 6/25/2018. It was after the initial Trial that the applicants] Subpoena Duces
Tecum issued on 10/25/2018, as set forth in the defendant’s Motion to Quash dated
10/25/2018 (EAMS Doc ID 27638111). and the applicant’s objection filed 11/16/2018
(EAMS Doc ID 68701859.)

10
11

12
13

The question here is whether the applicant has sustained her burden of proof in
establishing good cause for reopening of discovery after the MSC and after the initiation
of Trial pursuant to Labor Code Section 5502(e)(3). While the applicant has submitted
the [issue of the] validity of a number of documents offered by the defendant as exhibits,
nothing is set forth in said Petition so as to establish such good cause to reopen the
record, and thus the Order Quashing SDT dated 10/26/2018 (EAMS Doc ID 68495158)
will remain.

14
15
36
17
18

The applicant had raised the [issue of the] validity of exhibits of letters dated 11/12/2010
(Defendant's Exhibit "HH”) and 1/20/2011 (Defendant’s Exhibit “KK”). Noting such
documents were unsigned and otherwise unauthenticated, and the testimony of witness
Emery that he has only a “vague memory” of such documents, they were excluded.
(Report, pp. 14-15.)

19
20
21

A review of the amended Petition, more detailed in its listing of alleged misconduct bv
the employer commences with events on 8/17/2010 and ending 2/27/2011 with
[applicant’s] termination from the subsequent employer Park [sic] Electric . . . Even if
[defendant] were construed as part of such misconduct, the filing of the Petition under
Labor Code Section 132a on 2/1/2013 would be outside the prescribed one [year] statute
of limitation . . . and thus would be barred.
(Report, p. 16.)

22
23
24

25

The court is not clear as to the applicant’s contention that these are “continuous” actions
for which there should be no bar as to the statute of limitations....

26

/ / /

27

/ / /

DEAN, Faizah
|DEAN 5-0000000371

7

While the applicant contends that it is the defendant’s burden of proof to disprove
discriminatory acts under Labor Code Section 132a, the court finds nothing in the
statutory, regulatory or case law to support this contention.
(Report, p. 19.)

1
2
3

DISCUSSION

4

5

Before examining the merits of the Petition, we note that it was filed without verification. A

6

petition for reconsideration must be "verified upon oath in the manner required for verified pleadings in a

7

court of record.'’ (§ 5902; Cal. Code Regs., tit. 8, § 10510.3.) If a petition for reconsideration is filed

8

without verification, it is subject to dismissal if the petitioner has been given notice of the defect and fails

9

to cure it. (Lucena v. Diablo Auto Body (2000) 65 Cal.Comp.Cases 1425 [Appeals Board significant

10

panel decision].)

11

Here, the record discloses that applicant cured her failure to file a verification by filing a

12

verification on June 25, 2018. (Report, p. 3.) The Petition is therefore no longer subject to dismissal for

13

lack of verification.

14

However, WCAB Rule 10205.12(a) provides in pertinent part that all documents filed with the

15

WCAB must have margins of at least 1 inch, be without typed or handwritten text in any margin, be

16

printed in font of at least 12 points, and be double or one-and-one-half spaced. (Cal. Code Regs., tit. 8, §

17

10205.12(a)(2)(5)( 11). Here, the Petition contains margins of less than 1 inch, handwritten text in

18

margins, and single-spaced text in font of less than 12 points. We therefore admonish applicant for

19

failing to follow the rules of pleading and advise her that should she fail to follow1 these rules in the

20

future she may be subject to sanctions. (§ 5813; Cal. Code Regs., tit. 8. § 10561, now § 10421 (eff. Jan.

21

1, 2020).)

22

Turning to the merits of the Petition, w'e observe that section 132a provides in pertinent part:

23

25

Proceedings for increased compensation as provided in paragraph (1), or for
reinstatement and reimbursement for lost wages and work benefits, are to be instituted by
filing an appropriate petition with the appeals board, but these proceedings may not be
commenced more than one year from the discriminatory act or date of termination of the
employee....

26

Hence, in order to be timely, a section 132a petition must be filed within one year of the last

27

alleged discriminatory act or termination. (See County of Los Angeles v. Workers' Comp. Appeals Bd.

24

DEAN, Faizah
IDEAN 5-000000038]

8

1

(Dulan) (2000) 65 Cal.Comp.Cases 166 (writ den.).) The running of the

statute of limitations is an
affirmative defense and the burden of proving that the application for adjudication
is untimely lies with
defendant. (§§ 5409, 5705.)

2
3
4

In this case, both applicant and Mr. Emery testified that defendant

5

terminated applicant's
employment on January 20, 2011. (Amended Minutes of Hearing and Summary of Evidence, September

6

27, 2018, pp. 7:38-42, 8:19-26; Minutes of Hearing and Summary of Evidence, November

7

1, 2018, p.
7:24-27.) Inasmuch as more than one year elapsed between applicant’s January 20. 2011 termination and

8

the February 1,2013 filing of the original section 132a petition, the petition is barred absent tolling of the

9

limitations period. 5

10

As explained in Brome v. California Highway Patrol (2020) 44 Cal.App.5th 786:

11

IpIpiiiiSilsiii

12
13

one. (citations.) I he doctrine encourages the resolution of meritorious claims while
at'once^ Unnecessar^ ^'S3*100 an<3 alleviating the burden of pursuing multiple remedies

14

{Brome v. California Highway Patrol, supra, at pp. 794-795.)

15
16

In Elkins v. Derby (1974) 12 Cal.3d 410 [39 Cal.Comp.Cases 624], the Supreme Court held that

17

the limitations period for a personal injury action could be tolled where the plaintiff had sought a

18

workers' compensation remedy against the defendant, w'as determined by the finder of fact not to have

19

been the defendant's employee at the time of injury, and filed a personal injury action after the

20

determination became final on a date outside of the limitations period. The Court reasoned that the

21

timely filing of the workers' compensation claim had apprised the defendant of the basis of the personal

22

injury' claim and thus enabled the defendant to timely assemble a legal defense. (See Elkins,

23

417-418.)

24

/ / /

supra, at pp.

25
26
27

5

We note that applicant does not allege the occurrence of any misconduct on the part of any person or entitv within one year
of the February 1, 2013 filing of her section 132a petition, including the alleged February 27 2011 termination
'
of her
employment with non-party Pak Electric. (Report, p. 16.)
DEAN, Faizah

|DEAN 5-000000039I1

9

In McDonald v. Antelope Valley Communin' College Dist. (2008) 45 Cal.4th 88, the Supreme
2

Court found that equitable tolling requires a showing of three elements:

3

defendant; (2) lack of prejudice to the defendant; and (3) reasonable and good faith conduct on the part of

4

the complainant. (See McDonald, supra, at p. 102.) The element of timely notice requires that the

5

“filing of the first claim . . . alert the defendant in the second claim of the need to begin investigating the

6

facts which form the basis for the second claim.” (McDonald. supra, at p. 102, fn. 2; see also Elkins,

7

supra, at pp. 412. 417-418.) The element of lack of prejudice to the defendant requires a showing that

8

the facts of the claims are identical or at least similar enough so that the defendant's investigation of the

9

first claim will put it in a position to fairly defend the second. (See McDonald, supra, 45 Cal.4th at p.

10

(1) timely notice to the

102, fn. 2.)

11

Here, the record demonstrates that applicant pursued legal remedies relating to defendant’s

12

conduct surrounding her removal from the apprentice lineman position and the termination of her

13

employment. She filed a union grievance against defendant in approximately late September 2010

14

alleging that she w-as wrongfully removed from the apprentice lineman position and that she was entitled

15

to remedies of reinstatement and compensation for lost income. (Ex. 19, Notice of Failure to Resolve

16

Grievance, October 4. 2010.) She filed another grievance alleging that defendant wrongfully terminated

17

her employment—and the two grievance claims proceeded through at least September 28, 2011. (Ex. 12,

18

Reporter’s Transcript of Proceedings, Grievance No. 11-01-23397, September 28, 2011, p. 5:1-13.)

19

Applicant filed an OSHA complaint on January 5, 2011, alleging defendant violated health and

20

safety regulations applicable to her position as an apprentice lineman and the matter proceeded until at

21

least November 8, 2012. (Ex. O, OSHA Order Granting Party Status, April 9, 2013, pp. 10-11; Ex. 16,

22

OSHA Decision of February 20, 2014, p. 1.)
Applicant filed a complaint labeled “first amended complaint” in U.S. District Court on February

23
24

21. 2012, alleging various wrongful employment termination theories against defendant.6

(Ex. M,

25
26
27

6 We note that although the complaint is labeled “first amended,” we are unable to discern whether or on what date the action
was initiated by the filing of an original complaint.

DEAN, Faizah

IDEAN 5-000000040]

10

1

Complaint for Violation of Civil Rights. March 14. 2013. p. 1.) This matter continued until February 4,

2

2014. (F,x. 21, Decision of USDC. February 4. 2014, pp. 1-8.)
Additionally, applicant testified that the U.S. District Court proceeding was connected to her

4

workers' compensation and OSFIA allegations in that it included a wrongful termination claim. (Minutes

5

of Hearing and Summary of Evidence. October 24, 2019, pp. 4:23-5:4, 6:33-34.) She testified that the

6

reason her claims proceeded through various venues, including OSHA, EEOC, and the U.S. District

7

Court, was that she would alter direction after she received new information, with the result that she filed

8

her section 132a claim in 2013/ (Jd.p. 7:29-44.)

9

Notwithstanding this documentary and testimonial evidence that applicant reasonably pursued

10

other legal remedies following her removal from the apprentice lineman position and employment

11

termination before filing the section 132a petition, the evidence before us fails to demonstrate that (1)

12

applicant’s pursuit of these remedies provided timely notice to the defendant of the basis of her section

13

132a petition and (2) defendant was not prejudiced by the delayed filing of the petition.

14

Specifically, there is no evidence that applicant’s union grievances alerted defendant of the need

15

to investigate alleged discriminatory conduct surrounding applicant’s workers' compensation claim or

16

contained allegations sufficiently similar to those of the section 132a petition for defendant to be in a

17

position to fairly defend against the section 132a claim.

18

defendant’s conduct surrounding disciplinary actions taken against applicant, including a July 15, 2010

19

formal review of applicant’s job performance, the August 17, 2010 suspension of applicant from her

20

position, the September 15, 2010 removal of applicant from her position, and the January 20, 2011

21

termination of applicant’s employment. Significantly, none of this alleged conduct was connected to

22

applicant’s worker’s compensation claim; nor could the disciplinary review and suspension have been

23

allegedly connected to the claim because they preceded defendant’s notice of the claim. (Minutes of

24

Hearing and Summary of Evidence, November 1, 2018, pp. 5:13-17, 6:6-14; Report, p. 6; Ex. 19, Notice

25

of Failure to Resolve Grievance, October 4, 2010.)

Rather, the union grievances concerned

26
27

7 We are unable to discern evidence in the record showing whether or when applicant filed a claim with the EEOC.

DEAN, Faizah

IDEAN 5-0000000411

11

1

Similarly, applicant's January 5, 2011 OSHA complaint also failed to alert defendant of the need

2

to investigate the parties' conduct surrounding applicant's workers' compensation claim and contains

3

allegations not sufficiently similar to the section 132a claim to put defendant in a position to defend

4

against it. Rather, the OSHA complaint alleged that defendant failed to comply with health and safety

5

regulations generally applicable to the lineman position—and not discriminatory conduct related to

6

applicant or her workers' compensation claim. (Ex. O, OSHA Order Granting Party Status, April 9,

7

2013, pp. 10-11; Ex. 16, OSHA Decision of February 20, 2014, p. 1.)

8

Furthermore, applicant’s February 21,2012 civil complaint was filed outside the one-year period

9

following her January 20, 2011 termination, and thus cannot serve as a basis for tolling the statutory

10

period. (Ex. M, Complaint for Violation of Civil Rights, March 14, 2013, p. 1.) Though the complaint

11

was labeled as a first amended complaint and applicant testified that she pursued a legal remedy with the

12

EEOC, there is no evidence in the record that applicant filed an earlier complaint in case number

13 1 EDCV12-01435 or submitted a claim with the EEOC before the February 21, 2012 filing of the
14

complaint. {Id:, Minutes of Hearing and Summary of Evidence, October 24, 2019, p. 7:29-44.)

15

Additionally, had applicant filed an earlier complaint or submitted an administrative claim, there is no

16

evidence that such a complaint or claim would have alerted defendant of the need to investigate the

17

parties’ conduct surrounding applicant’s workers’ compensation claim in a manner sufficient to avoid

18

prejudice from the delayed filing of the section 132a petition. 8
Accordingly, we conclude that the evidence in the record before us is insufficient to toll the

19
20

limitations period applicable to the section 132a petition.

21

Turning to applicant's argument that defendant holds the burden of proof that it did not

22

discriminate against her, we observe that under section 132a, li[i]t is the declared policy of this state that

23

there should not be discrimination against workers who are injured in the course and scope of their

24

employment." Section 132a protects an employee from retaliation or discrimination by an employer

0k

25

26
27

8

The filing of an administrative claim, like the filing of a civil complaint, may afford a defendant notice of the claims against
it so that it may gather and preserve evidence and thereby be shown to have avoided prejudice under the doctrine of equitable
tolling. (See Elkins v. Derby, supra, at pp. 414, 417-418.)

DEAN, Faizah

[DEAN 5-000000042]

12

1

because of an exercise of workers’ compensation rights. (City of Moorpark v. Superior Court (1998) 18

2

CaUth 1143 [63 Cal.Comp.Cases 944] (Moorpark):, Judson Steel Carp. v. Workers' Comp. Appeals Bd

3

(1978) 22 Cal.3d 6i8 [43 Cal.Comp.Cases 1205]; Department of Rehabilitatio n v. Workers' Comp.

4

Appeals Bd. (Lauher) (2003) 30 CaUth 1281, 1298-1299 [68 Cal.Comp.Cases 831]; Smith v. Workers’

5

Comp Appeals Bd. (1984) 152 Cal.App.3d 1104, 1109 [49 Cal.Comp.Cases 212] (Smith): see Usher v.

6

American Airlines. Inc. (1993) 20 Cal.App.4th 1520, 1526 [58 Cal.Comp.Cases 813].)

7

Section 132a provides in pertinent part:

8

Any employer who discharges, or threatens to discharge, or in any manner discriminates
against any employee because he or she has filed or made known his or her intention to
file a claim...or an application for adjudication, or because the employee has received a
rating, award, or settlement...testified or made known his or her intention to testify in
another employee’s case... is guilty of a misdemeanor and the employee shall be entitled
to reinstatement and reimbursement for lost wages and work benefits

9
10
11
12

This section has been interpreted liberally to achieve the goal of preventing discrimination

13

against workers injured on the job," while not compelling an employer to “ignore the realities of doing

14

business by ‘reemploying’ unqualified employees or employees for whom positions are no longer

15

available.” (Lauher, supra, 30 CaUth at pp. 1298-1299 [citations omitted].)

16

In Lauher, the Supreme Court clarified its definition for “discrimination,” noting that in its

17

previous decisions in Smith, supra and Barns v. Workers' Comp. Appeals Bd. (1989) 216 Cal.App.3d

18

524, the Court held that an employer’s action which caused detriment to the employee because of an

19

industrial injury was sufficient to show a violation of the statute. (Lauher, supra, 30 Cal.4th at p. 1299

20

quoting [1 Hanna, Cal. Law of Employee Injuries and Workers’ Compensation (rev. 2d ed., Peterson et

21

al. edits, 2002)], § 10.11[1], p. 10-20 [“[t]he critical question is whether the employer's action caused

22

detriment to an industrially injured employee”]; see Barns, supra, 216 Cal.App.3d at p. 531.)

23

The Lauher court noted with approval the Court of Appeal’s finding that the formulation

24

enunciated in Smith v. Workers' Comp. Appeals Bd. (1984) 152 Cal.App.3rd 1104, and adopted by Barns

25

to establish a prima facie case was “analytically incomplete:”

26
27

The court explained that, although Lauher had clearly suffered a detriment by having to
use his accumulated sick leave and vacation time for his visits to see Dr. Houts. he never
established he ‘had a legal right to receive TDI [temporary- disability indemnity] and
retain his accrued sick leave and vacation time, and that [his employer] had a
DEAN, Faizah
13

iDEAN 5-000000041]

corresponding legal duty to pay TD1 and refrain from docking the sick leave and vacation
time.' Thus, said the court. ‘[t]o meet the burden of presenting a prirna facie claim of
unlawful discrimination in violation of section 132a, it is insufficient that the industrially
injured worker show only that ... he or she suffered some adverse result as a
consequence of some action or inaction by the employer that was triggered by the
industrial injury. The claimant must also show that he or she had a legal right to receive
or retain the deprived benefit or status, and the employer had a corresponding legal duty
to provide or refrain from taking away that benefit or status.(Lauher, supra, 30 Cal.4th
at pp. 1299-1300, italics added.)

1
2
3
4
5
6

The Court further agreed with the Court of Appeal that “[an] employer thus does not necessarily
7
engage in ‘discrimination' prohibited by section 132a merely because it requires an employee to shoulder
8
some of the disadvantages of his industrial injury. By prohibiting ‘discrimination’ in section 132a, we
9
assume that the Legislature meant to prohibit treating injured employees differently, making them subject
10
to disadvantages not visited on other employees because the employee was injured or had made a claim.”
11
(Lauher, supra at p. 1300.)
12
As the Lauher court determined in the first part of its decision, the employee was no longer
13
entitled to temporary disability indemnity (TDI) because his condition was permanent and stationary.
14
(Lauher, supra at p. 1297.) Therefore, even though the employee’s use of sick and vacation leave was
15
for medical treatment and time off due to his industrial disability, because he was not entitled to TDI, the
16
employee was treated in the same way as non-industrially disabled workers who were also required to
17
use sick and vacation leave for medical treatment and time off due to a disability. Because the employee
18
in Lauher was on the same legal footing as non-industrially injured employees with respect to this issue,
19
he could not show a legal right to TDI, and therefore could have only established a prima facie case for
20
discrimination if he had been “singled out for disadvantageous treatment.” (Id. at p. 1301; Accord,
21
Gelson's Markets, Inc. v. Workers’ Comp. Appeals Bd. (2009), 74 Cal.Comp.Cases 1313, County of San
22
Luis Obispo v. Workers' Comp. Appeals Bd. (2005)133 Cal.App.4th 641 (Martinez); Compare with San
23
Diego Transit. PSI. Hazelrigg Risk Management Services, Administrator, Petitioners v. Workers'
24
Compensation Appeals Board (2006) 71 Cal.Comp.Cases 445 (Calloway) [writ den.; defendant violated
25
section 132a by refusing to return applicant to her bus driver position after she was released to work by
26
her PTP, another treating physician and an AME.]).)
27
DEAN, Faizah
IDEAN 5-0000000441

14

1

Based on its specific application to the facts of Lauher, we view' the Court's phrase “singled out

2

for disadvantageous treatment’- to be an application of the broader standard adopted by Lauher—that, in

3

addition to showing that he or she suffered an industrial injury and that he or she suffered some adverse

4

consequences as a result of some action or inaction by the employer that was triggered by the industrial

5

injury, an applicant “must also show that he or she had a legal right to receive or retain the deprived

6

benefit or status, and the employer had a corresponding legal duly to provide or refrain from taking away

7

that benefit or status." (Lauher, supra at p. 1300.) Stated another way, an employee must show they

8

were subject to “disadvantages not visited on other employees because they were injured. . . .“ (Id.)9

9

Because the employee in Lauher was not deprived of a legal right to TD1, and therefore could not show

10

he was treated differently than other employees with respect to his alleged detriment, he could not

11

establish a prima facie case of discrimination.10

12

Accordingly, we concur with the opinion of the WCJ, as expressed in the Report, that there is no

13

legal basis for applicant’s contention that defendant holds the burden to establish that it did not

14

discriminate against her in violation of section 132a. (Report, p. 19.)

15

of the WCJ, as expressed in the Report, that applicant failed to meet her burden of proving her prima

16

facie section 132a claim because her testimony asserted that defendant’s alleged discriminatory conduct

17

occurred before defendant knew or could have known of her alleged injury and workers’ compensation

18

claim. (Report, p. 6.)

19

actions defendant initiated weeks before applicant presented her workers' compensation claim ultimately

20

resulted in applicant’s removal from her position and termination of employment. (Report, pp. 7-8.)

21

Thus, based upon applicant’s failure to present evidence sufficient to show that her removal from her

22

position and termination of employment constituted disadvantages not visited upon other employees

We also agree with the reasoning

Moreover, as explained in the Report, Mr. Emery testified that the disciplinary

23
24
25
26
27

9 Accord, St John Knits v. Workers’ Comp. Appeals Bd.. 2019 Cal. W'rk. Comp. LEXIS 75 [writ den.; the Court of Appeals
found no reasonable grounds to review a WCAB finding of section 132a discrimination based upon substantial evidence of
defendant employer's subjection of industrially-injured employee to disadvantages not visited on other employees.]
We also note that the particular standard denoted by the phrase “singled out" does not literally apply where the detriment
affects injured workers as a class, although the broader standard would apply. (Anderson. supra at pp. 1377-1378.)

DEAN, Faizah
-[DEAN 5-000000045}

15

because they were injured, we are unable to discern merit to her contention that the WCJ erred by finding
2

that defendant did not violate section 132a.

3

Turning to applicant’s contention that the WCJ erroneously failed to set aside his order quashing

4

applicant’ s subpoena duces tecum, we concur with the reasoning of the WCJ. as expressed in the Report,

5

that the record lacks evidence demonstrating good cause for reopening discovery after commencement of

6

trial herein. (Report, p. 14.) Further, the Petition fails to explain how the order quashing the subpoena

7

could have harmed applicant’s legal ability to prove her section 132a claim. Accordingly, we discern no

8

merit to applicant’s contention that the WCJ erred by declining to set aside the order quashing the

9

subpoena.

10

We next address applicant’s contention that the WCJ erroneously admitted defendant’s exhibits

11

HH and KK. Here, as the WCJ explained in the Report, applicant is incorrect that the exhibits were

12

admitted into evidence.

13

Evidence, September 27, 2018, p. 5:20-21.) To the contrary, the record reveals that the WCJ determined

14

that exhibits HH and KK lacked authentication and should not be admitted. (Id.) We therefore discern

15

no merit to applicant’s contention that the WCJ erred by admitting exhibits HH and KK.

16

(Report, p. 15: see also Amended Minutes of Hearing and Summary' of

Accordingly, we will affirm the F&O.

17

/ / /

18

/ / /

19

/ / /

20

/ / /

21

/ / /

22

/ / /

23

/ / /

24

/ / /

25

/ / /

26

/ / /

27

/ / /

DEAN, Faizah
IDEAN 5-000000046]

16

1

For the foregoing reasons.

2

IT IS ORDERED, as the Decision After Reconsideration, that the Joint Findings and Order

3

issued on January 14, 2020 are AFFIRMED.

4

5

WORKERS’ COMPENSATION APPEALS BOARD

6
7

/s/ KATHERINE A. ZALEWSKI, CHAIR

8
9

I CONCUR,

10

11

/s/ DEIDRA E. LOWE. COMMISSIONER

12
13

/s/ JOSE II. RAZO. COMMISSIONER

14
15

DATED AND FILED AT SAN FRANCISCO, CALIFORNIA

16

JULY 22, 2020

17

SERVICE MADE ON THE ABOVE DATE ON THE PERSONS LISTED BELOW AT THEIR
ADDRESSES SHOWN ON THE CURRENT OFFICIAL ADDRESS RECORD.

18
19

FAIZAH DEAN
KARLZEN HUTCHINSON

20
21
22
23
24

SRO/oo

25
26
t certify that I affixed the official seal of the
Workers' Compensation Appeals Board
to tliis original decision on this date. (2S

27

DEAN, Faizah
—|DEAN 5-0000000471'

17

Appendix
B

IDEAN 5-000000048]

I

STATE OF CALIFORNIA
Division of Workers’ Compensation
Workers’ Compensation Appeals Board
Case No. ADJ8009847 (MF); ADJ8386217
FAIZAH DEAN,
Applicant,

vs.

JOINT
FINDINGS AND ORDER

SO CAL EDISON;
SOUTHERN CAL EDISON ROSEMEAD;

Defendants.
The above entitled matter having been heard and regularly submitted, the Honorable
Robert Hill, Workers’ Compensation Administrative Law Judge, now decides as follows:
FINDINGS OF FACT
1. Faizah Dean, bom 9. 19/1975, as a lineman, occupational group number 380, at
various locations in California, while employed by Southern California Edison,
permissibly self-insured, claims the following in connection with her Application
for Discrimination Benefits Pursuant to Labor Code Section 132a, originally tiled
2/1/2013, and later amended 5/1/2018 with subsequent verification:
a. ADJS009847 (MF)-claimed to have sustained injury on 2/15/2010 to her
back.
b. ADJ83862 17-during the period 9/15/2009 to 9/15/2010 (later amended to
7/13/2009 to 1 LT2/2010) claimed to have sustained injury to her internal
system, vaginal areas, blurred vision, reproductive organs, psyche and back.
2. Said cases were the prior subject of the Joint Findings and Order dated 12/13/2017.
3. The companion case ADJ8386218 was dismissed as being duplicative in part of the
current case ADJS386217. and the parts of body in ADJ83862I7 otherwise
amended as set forth above (see Minutes of Hearing 4/6/2015).

Document ID:4066785450319151104
lDEAN 5-0000000491

4. The Application for Discrimination Benefits Pursuant to Labor Code Section 132a.
originally filed 2/1 '2013, and later amended 5/1/2018 with subsequent verification
is barred by the Statute of Limitations pursuant to Labor Code Section 132a(4).
5. The applicant has otherwise failed to sustain her burden of proof that the employer
engaged in discriminatory' acts as otherwise set forth in Labor Code Section 132a.
6. Defendant's Exhibits “HH” and “KK” are unauthenticated and are excluded from
Evidence.
7. The applicant has failed in her burden of proof to establish good cause to set aside
the Order of 10/28/201S quashing the subpoena duces tecum.

ORDERS
a. Defendant’s Exhibits “S” through GG”. 'TP and “JJ” are taken into
evidence.
b. Defendant's Exhibits “HH” and “KK” are excluded from evidence.
c. The applicant's objection and motions to set aside the Order of 10/28/2018
quashing the subpoena duces tecum is denied.
d. Applicant shall take nothing by her Application for Discrimination for
Benefits Pursuant to Labor Code Section 132a originally filed 2 1 2013. and
later amended on 5 1 2018 to include subsequent verification.

\.7~

DATE: 1/14/2020

'“7

-----

Robert Hill
WORKERS' COMPENSATION
ADMINISTRATIVE LAW JUDGE
Served by mail on all parties listed on the
Official Address record on the above date.
BY; G.Garcia

ON: 01/14/2020

FAIZAH DEAN

IDEAN 5-0000000501

a

ADJ 8009847
Document ID: 4066785450319151104

f

s

ALBERT MACKENZIE ORANGE, US Mail
CA MED MANAGEMENT MONTEBELLO, US Mail
EAGLE EYE IMAGING FONTANA, US Mail
HDD SD1 SAN BERNARDINO, US Mail
FAIZAH DEAN, US Mail
GOLDSTAR FINANCIAL SANTA FE SPRINGS, US Mail
ORACLE MED COLLECTIONS POMONA. US Mail
PASEO PEL-ARM AC Y. US Mail; SO CAL EDISON, US Mail
SOUTHERN CAL EDISON ROSEMEAD, US Mail
VERBATLM RX PHARMACY POMONA. US Mail

FAIZAH DEAN

ADJS009847

Document ID: 4066785450319151 104
IDEAN 5-00000005lf

FAIZAHDEAN
ADJ8OO0847

OPINION ON DECISION
{Labor Code Section 53131

Fai/ah Dean, bom 9/19/1975, as a lineman, occupational group number 380, at various
locations in California, while employed by Southern California Edison, permissibly selfinsured, claims the following:
c. ADJ8009847 (MF)-claimed to have sustained injury on 2/15/2010 to her back.
d. ADJ8386217-during the period 9/15/2009 to 9/15/2010 (later amended to 7/13/2009 to
11/12/2010) claimed to have sustained injury to her internal system, vagina! areas,
blurred vision, reproductive organs, psyche and back.
The companion case ADJ83S6218 was dismissed as being duplicative in pail of the
current case ADJ838621 7, and the parts of body in ADJS3S6217 otherwise amended as set
forth above (see Minutes of Hearing 4/6/2015).
A joint Findings and Order as to the two active cases issued on 12/13/2017, finding that the
applicant did not sustain injuries as alleged, and further reserving jurisdiction of the parties’
respective petition for costs/sanctions. Applicant sought reconsideration, with the Opinion and
Order Denying Petition for Reconsideration issued 2/22/2018. 'I he applicant then sought a
Petition for Writ of Review. The Order Denying Petition for Writ of Review issued 6/14/2018
(see HAMS Document No. 67577705).
Currently at issue is the applicant’s allegation that her (now) former employer Southern
California Edison violated the provisions of Labor Code Section 132a.

FA1Z.AH DEAN

[DEAN 5-00000005 2f

4

ADJ 8009847
Document ID: 4066785450319151104

The original Petition under Labor Code Section 132a was dated 9/28-2012, though not hied
by the applicant until 2/1/2013 (see EAMS Doe ID 46601014). At the time off rial on
6/25/2018, it was noted by the court that the amended "Application for Discrimination Benefits
Pursuant to Labor Code Section 132(a)” dated 5/1/2018 (and filed that same date) was lacking
the required verification as required under Rule 10450(e). The court also noted that Labor
S\

vY
A

Code Section 132a(4) itself referred to the requirement of filing of a “petition” to commence
proceedings, further noting that the failure to comply with the verification requirement
constituted a valid ground for summarily dismissing or denying such petition, the court further

\

noted the holding in the significant panel decision Torres v. Contra Costa Schools Insurance
(2014) 79 CCC 1181; 2014 Cal. Wrk. Comp LEXIS 1 11 (in dealing with IMR Appeals
requiring such verification) that the applicant should be afforded a reasonable amount of time
to cure this defect. As such, this case was ordered off calendar and the applicant given until
the end of work day V16/20 IS (thereby allowing 20 days) to file such verification (see Minutes
of Hearing 6/25/2018).
Such verification was filed 6/25/2018 (see EAMS Document ID 67450592.)
The amended Application raises the following as alleged employer’s violation of Labor
Code Section 132a:
1. That on 8/17/2010 she was suspended with "just cause”, and that she believed the
treatment toward her was based on "gender difference alter she was suspended with
cause”. [Page 2, line 6j. Further, that based on the collective bargaining agreement
between this employer and her union 1BEW Local No. 47, that her employment is
not "at will” and that her termination can be only "for cause". [Page 12. lines 7
through 9J.

FAIZAH DEAN

IDEAN 5-00000005~3f

5

ADJ8009847
Document ID: 4066785450319151104

2. That on 8/19/2010, a meeting was conducted to include herself, and the company's
Eric Emery, Byron Redd, and Tyrone Chamois to review the Performance Action
Plan and Reinstatement Letter [Page 2, line 22]. During this meeting, and in the
reinstatement letter, work issues to include insubordinate behavior, safety rule
violations and tardiness were not. [Page 3, line 10].
3. That on 8/24/2010, and after seeking a doctor’s advice on 8/23/2010, she reported
her injuries to her supervisor and spoke to him about her back pain, eye strain, and
vaginal swelling and irritations associated with the unsanitary condition in the tiled
when working using toilet bag systems. [Page 3, lines 15 through 23 and later page
7, lines 6 through 8], Further, she asked for better accommodations in the held, that
her lower back pain seemed aggravated by her use of the line boots to do
groundwork, and that she reported blurred vision and heavy pressure and related
symptoms [Page 3, line 26, through page 4, line 6].
4. That later that day, she met with the employer’s investigator Keith Dobson about
investigating gender discrimination in the department, and later on 9/9/2010 she
reported to Dobson that Robert Delgado, identified as the son of Ron Delgado
(identified as president of 1BEW Local No. 47/SCE Troubleman) telling her "I need
to go hack to “marry maids and do some housework.” [Page 4, lines 9 through 17.]
5. That on 9/15/2012 (2010?) she was removed from the apprentice program (Page 4,
line 20],
6. That on 11/13/2010 there was an exit interview which included herself, the manager
of the Department Erik Emery and Ron Delgado of the union. [Page 5, lines 1
through 3].

FAIZAH DEAN

IDEAN 5-0000000541

6

ADJ 8009847
Document ID: 4066785450319151104

7. That she was removed from tire apprenticeship program after having met with
Dobson on 9/9/2010 “about gender discrimination in the policies and procedures of
the apprenticeship program.” [Page 5, lines 5 through 9],
8. That she was not allowed to rebid for the apprenticeship program in spite of the fact
that she had seniority and was qualified as a Groundman A, and that she was
otherwise blocked from bidding and placed on non-paid leave. [Page 5, lines 10
through 21],
9. That site then bidder! for the position of Groundman A-3 but was not offered this
position in spite of the fact that she was qualified. [Page 5. lines 23 through 26].
10. '['hat was offered a lower paying job as meter reader although it was 70 miles from
her home, and the reduction in pay was not sufficient to cover he personal expenses
[page 5, line 27 through page 6, line 3],
11. That she was rejected from the planner job “because of seniority”. [Page 6. line 4],
12. That on 1/7/2011 she was e-mail information about the scheduling and confirmation
of the Substation Apprentice Test on 1/13/2011, which she “thought was odd" and
she was terminated on that date. [Page 5. lines 5 through 7], and that on 1/11/2011
Emery had e-mailed her not to come in for the test which coincided with the
employer's having received the CalOSHA complaint [page 5, lines 10 through 13j.
13. That she believes that her not being allowed to take the apprentice test was
retaliation for the filing of the CalOSHA complaint, SCE internal investigation,
discrimination in employment and worker's compensation, and wrongful discharge
in violation of public policy. [Page 7, lines 3 through 5].

FAIZAH DEAN

IDEAN 5-0000000551-

7

A DJ8009847
Document ID: 4066785450319151104

14. That on 2/27/201 1 she was terminated from her subsequent employment Par
Electric ( an 1BEVV contractor). [Page 5, line 21 j.
15. That the employer should be estopped based on its conduct from raising the defense
of the statute of limitations.
At the time of Trial on 9/27/2018. the applicant testified. The court advised on the record
the requirements of Rule 10447, and that the presentation of the case would be limited as to the
allegations as set forth in the Amended Petition fled 5/1/2018, the defendant's Answer tiled
5/21/2018, and the applicant’s replies of 7/3/2018 and 7/5/2018.
During the morning session, the applicant confirmed that here employer was first made
aware of her claim on 8/24/2010. with the presentation of the work status report from Kaiser
dated S/23 2010. Much of the direct examination at this point was the court’s direction, to
cover the pertinent portions of her Petition as outlined above, and to determine the basis for her
contentions that the employer’s actions were in relation to her workers' compensation claim (or
intent to file such a claim). Up to this point, and based on what she described as part of
“deductive reasoning", several events were outlined which actually predated the employer’s
notice to include her suspension on 8/17/2010 and reinstatement on 8/19/2019, Her testimony
at times was rambling and not cohesive at her contentions, and at times referred to other acts of
perceived discrimination (e.g. gender discrimination), or to parties not named in this action
(e.g. her union 1BEVV #47 and subsequent employer Par Electric).
This matter was continued to 11/1/2018, to allow her to present her additional testimony
and to proceed with the testimony of the witness Eric Emery.
The proceedings on 11/1/201S commenced with the applicant’s continuing testimony,
which immediately became contentious between the parties and unfocused as to the

FA 17.AH DEAN

[DEAN 5-000000056]

8

ADJ 8009847
Document ID: 4060785450319151104

applicant's contentions as set forth in her amended Petition. After review with the
parties and on the court's own motion, defense witness i tie fc'merv was called out of
order to establish key dates and actions undertaken by the employer, in an effort to
provide more structure as to the presentation of the case.
During this time, the applicant was assured that she would be entitled to cross-examine this
witness, and then to continue with her own presentation of her ease. At one point during the
proceedings, the applicant made a general suggestion (without specifics) that the court was
biased. The court reiterated that with the completion of this witness’ testimony to include her
cross-examination, that she could proceed with the presentation of this case. The court would
note that from the latter point of the morning session through a portion of the afternoon
session, her direct examination became rambling. It was at this point that the court intervened.
and utilized witness Pinery's testimony to develop record making every effort to protect the
due process of both sides.
Her limited direct examination indicated that the summary of her testimony from
9/27/2018 (page 6, line 11) required clarification, in that she did not provide a claim form
(DWC-I) at the time of her meeting with Emery on 8/24/2010, hut rather that she had provided
him a copy of her physician's work status report. The employer interpreted this as the
reporting of a claim of injury of on or about 2/15/2010, for which a claim was set up, a delay
issued followed bv a denial.
In his testimony, Emery recounted the events leading up to a meeting of 9/10/2010, at
which time the applicant was suspended (with pay) from the lineman apprentice program due
to performance issues, primarily documented in the daily logs for which both the applicant
retained the original and the employer retained a copy. This included such issues as the

FA1ZAH DEAN

IDEAN 5-000000057T

9

A DJ 8009847
Document ID: 4066785450319151104

purported improper set up of equipment and tardiness. 1'his resulted in her being placed in the
60-60 plan, with the first 60 days to include a performance improvement plan, during which
time site was placed in a groundsman position at the pay scale for the lineman apprentice step
I. However, based on the failure to improve, the applicant was terminated from the program on
1 1/14/2010 (a later notice would refer to 1 1/15/2010), at which time she was placed on unpaid
leave with access to company facilities for purposes of looking for job postings within the
company. At one point, Emery had offered the position of meter reader in Yucca Valley, with
his noting that her class "A" license would allow Iter to operate the heavier equipment and
increase her mobility within the company. However, site declined this offer indicated she was
then employed by far Electric.
As direct examination of this witness was not completed, tire matter was continued to
12/5/201 S. Due to the unavailability of a court reporter, the matter was continued to 1/2/2019,
later continued to 2/21/2019 due to the unavailability of a court reporter.
At the time of Trial on 2/21.'20 i 9. continuing testimony of the witness Eric Emery was

heard.
His testimony focused on the applicant’s participation in the apprentice lineman program in
2010 (noting that previously she had held the position of a groundsman), further noting that
this program consisted of six steps, the applicant did not complete a single step leading up to
her removal from the program on 9/15/201 (J for unsafe work practices and failure to follow
directions. A meeting was conducted which included the applicant, the witness, the manager
Byron Redd and the union shop steward (this witness would later testify that there was a list
maintained of such stewards, and the actual selection for the meeting was made by the
employer on a random basis as to which steward was available). At the time, the applicant was

EAiZAH DEAN

IDEAN 5-000000058r

10

AD J 8009847
Document ID: 40667854503191 51104

placed on a "60.'60” program, in which for sixty days she would be allowed to hid for another
position wiihin the company for which she was qualified, and during which time she remained
on a paid status based on her salary level upon entering the lineman program), followed hv
another 60 days in which she retained the right to bid but on an unpaid status. This program
was part of the employer’s policy. At the end of the first 60 days, he had become aware that
the position of a meter-reader hud become available in Yucca Valley, which he relayed to the
applicant who declined consideration of this position as sire was then employed by another
company. Originally, the second 60 days on unpaid status was to have ended 1/12/2011, but
was extended to 1 • 20/2011 at which time she was terminated for failure to secure a new
position. At the time of the original removal from tire appremiee program he w as unaware of
her prior claim as outlined in the Kaiser work status report of S/24'2010, nor at any time did
she indicate that her inability to participate in the program was related to that alleged injury.
This witness testified in a truthful and credible manner, and confirmed the employer's
policies and their application to this employee in a non-discriminatory manner.
At the time of Trial on 4/29/2019. the defendant waived further examination of the witness
Eric Emery.
Defense witness Byron Redd was called, who testified that he was the applicant s
supervisor for a period ol'time in 2010. In terms of the apprentice program in issue, lie
testified that he himself had participated in that program from 1994 through, 1997. He further
testified that prior to the applicant’s entry into the program, an action plan had been prepared
due to the applicant's unsatisfactory job performance (Defendant’s Exhibit “V”). He also
confirmed that he had been aware of the applicant's workers’ compensation claim on
S/24/2010 when he was presented with the medical status report of Dr. Dinh dated 8/23/2010

FA1ZAH DEAN

|DEAN 5-000000059}

ADJ8009S47
Document ID: 4066783450319151104

(Applicant’s Exhibit "20"), and that at the time of that meeting she had been provided the
workers’ compensation claim packet pursuant to company policy Noting that she had been
accommodated pursuant to Dr. Dinh’s recommendation, and was not required to wear the
“climbing boots” referred to in his report that were aggravating her condition, he also
confirmed that she was not treated any differently than other employees.
During the afternoon session, the defendant completed direct examination of this witness.
At this point, applicant moved to re-open the record and submit additional evidence so as to
impeach and/or rebut tire testimony of witnesses F.mery and Redd. To allow the applicant time
to formalize her motion into a Petition, to include a designation of those port ions of the
proposed additional record to support her contentions, the matter was continued to 7/1/2019.
The matter proceeded to Trial on 7/1/2019. The applicant initially advised that her
Petition to Re-open the Record had been mailed 6/2S/20I9, although had not yet been received.
The applicant’s cross-examination then proceeded of Byron Redd, which continued to be a
highly contentious matter between the parties.
Critical to his testimony was the Kaiser medical note dated S/23/2010 outlining certain
work restrictions was received on S/24,'2010. Prior to that time, an initial write up had
occurred as to the applicant’s participation in the lineman apprenticeship program on
7/15/2010, which was followed by the actual removal from the program on 9/15/2010. His
testimony also included a distinction between a “repeat” program (where the removed
apprentice is allowed to bid for a position within the company, and at a later time rc-apply for
the apprenticeship program) and the “60/60” program, where the employed is allowed to look
for other work within the company while on paid status for 60 days, followed by another 60
days on unpaid status while this search continued. In these circumstances, the employee is not

FA1ZAH DEAN

IDEAN 5-000000060r

12

ADJ 8009847
Document ID:4066785450319151104

;

allow to re-apply for the apprenticeship program. During the course of his cross-examination.
the applicant presented several documents which purportedly attempted to show that the
actions undertaken from the apprenticeship program, hut this witness continued to testify in a
truthful and consistent matter that the company policies had been followed, to ineluded her
placement on the “60/60’' program.
As this witness {as well Erie Emery) hail been taken out of order to allow the establishing
of key time points as part of the applicant’s allegations, the matter was continued to S'7/2019
to allow the applicant’s continuing direct examination and consideration of her Petition to Re­
open the Record.
The parties re-appeared for Trial on 8/7/2019. These proceedings were delayed due to the
appearance of new defense counsel, and lire lack of a properly executed Substitution of
Attorneys.
While the defendant initially posed an objection to the WCAB jurisdiction over the pending
Labor Code Section 1 22a action as the previously issued Findings and Award pertaining to the
ease-in-chief issues did not reserve jurisdiction, it was determined that the Labor Code Section
132a issue was actually bifurcated by Order of Judge Robin Woolsey (the prior assigned MSC’
judge) on 1/5 2015, and thus the objection with withdrawn.
After further review with the parties, several documents were located in CAMS which
could not previously be located, to include the following:
1. Petition to Re-Order defense witness Eric Emory (misdated 9'28'2019)
[EAMS Document ID 705390211).
2. Defendant’s Objection dated 7/25/2019 [EAMS Document ID 29821995],

I A1ZAII DEAN

|DEAN 5-00000006l|-

13

A DJ 8009847
Document ID: 4066785450319151104

JZ9000000Q-S ureaal

t-OI lSl6k'0St-SSi9y(M- o 1

NVHCl HVZIVJ

it-sooosrav

■s.oiousSi! n:iu3iuiU3AO<i .i3q)o jo uoipqtsunfotji .13 pun oiuinq oitu.icl0.1 tidu
3.IOUI siu.onuoo 0S3qi qq.w n?pu| uoijms opoj -loquf J3pun uouituuuu.osip qsqqiqso o)
XUOUIHS01 Slip Ul pi|SI|qRJS3 SCiW SuupOU U3.A0)dlU? sup MilM Ul.THKtt.JO srcwp |«|UI3JOd [R.I3A3S
pr>ijuur>p! 3qs r>pi[A\ imp si ai)).ioavo)ou apasaaoh

(opnSpa iu)>i wopissjd su Xpcinoipcd

puc) if-ft A\30! uouin .i.oq |0 jsn.qsjp J3q pun ‘.i3.A<>|duio siqi uioj) uoiiimiui.13) 3)t!U!ii)n
.131) SI! j|3.\\ SI! Uin.lSo.id 33jlU0.lddK 3ljl IIIO.l) JCA01U3J .I3l| jO SuqpUtiq 3l|] ?)ndSip 0S|1! ppiOAA
3i)S •Suisnoj-i pile ui3uiA0)duiq jmjqo jiioaiwiidaQ 3ip se |p.-v> sc (VHSO) uotumsuituipv
i|)|i!3]) puc APjes |i.:uoiii;dn330 3t|) qjoq oi poAup.i 3.13A\ ipupu SU0i)ipil03 3JCKUn papodjnd
[IU3A3S oi sc AJIJS3) os|« p(no/v\ sqs nsuuojddn uiuuouq i! SR os|B inq pv ucaispunojS
jo uoqisod psuiriissn A].nqnn3.i .i3i[ ipiAi /quo jou qunui.uu 0jnp3.30.1d puc Aoqod sp r>ui)U3U!3|duii
ui ,i3A.o|dui3 sqiqo ).u;d 3ip no s3i)i.nqnS3.ui p3i.iod.mdjo .i?quinu c o) p3.Li3j3.i incsijddc 3i()
'A‘U0U1US31.13q iq •6i0c.(p6 no p3p.3330.1d uoipuiuiuxo pojip sqtuioqddti 3ip )o A'ep qnj y

(oiOctc/OI
)0 Oicp )t!U.i p3nutlll03 3ljl .10) siscq l)l!3-U0 111! 110 3|qiqtCAR SS3U)lA\ Slip 3ACq 0) p3J3pjQ
)UCpil3)3p 3t|l put! UOlJISOCiSip 31)1 111 pOplljOllI Si!A\ SU|1 qci-IJJO 3III 1) 3l|) 1V) '3KU0dS3.1 Jpi[)
Suqij jo s3sod.md .10) q j Ot/CDft !!lun uoAji? 3.ioa\ put; ‘q | ()c/9/6 uo )U3iim3op siqi jo idi333J
.U3q) |)3uui)uo3 iiu:pii3j3p 3t]i )iq.i.L jo 3uii) 3i|i in ‘[jZ£6ct"01Z. QI lusuinooa Sl'W-lJ 6IOc/t/6
pomp A.ismq qt.iq ,!3p.io3» oi uouii3,| .i3t) p3)ij. ’ojrp [iri.i.L p3|npoq.3S-3J nqi oi .uilij
'(lI0c/6/6 01 [131111111103
sttA\ .I31H11U 3i]i qos op oi ()i0c/L6 il)Un l'3Aio sum oqs) ppoy uo.iAy ssouium ostiojop Jop.io
-3>J 01 U01)1)3J PU033S 1! 3]!J O) ISPIlbO.I S,}UI!.3qddl! 3l|) pill! 'SiUUp3330.!ll Ul All|0p 31)) O) 3HQ
•[!:9WC<s9CIi liioumnocj
SiMVH] KI0c/8c/0I M”P IQS Suiqspnft iapjQ 0) uotpafqo squcDqddy

q;

So as to allow the completion of her direct testimony and the defendant’s crossexamination. and to allow the court to rule on her motion to re-open the record for additional
witness testimony, the matter was continued to 10/24/2019.
At the time of Trial on 10/24/2019, the applicant's testimony was completed. This
included her acknowledgement of her removal from the apprenticeship program, the original
60 days given to find another job within the company, followed by another 60 days of unpaid
leave. She also acknowledged the ruling by the U.S. District Court granting the defendants’
Motion for Summary Judgement (which included this employer), and the finding that the
employer’s actions were neither retaliatory nor discriminatory, based on her poor performance,
although she would indicate on re-cross-examination that this was in the context of her OSHA
complaint only. She would continue to argue that the original claimed date of injury of
2/15/2010 was incorrect, but would roughly coincide with her reporting of her claimed workrelated problems. As to the defense of the statute of limitations, she would acknowledge that
her tiling of her Petition under Labor Code Section 132a not being tiled until 2/1/2013. she
responded that she had several other legal actions pending at the time including the U.S.
District Court, OSHA and FEHA, and as the result did not focus on this issue, but through her
continuing discovery and investigation of the corollary legal actions determined that she should
proceed with this action.
The applicant’s Petition to Re-open the Testimony of Uric Emery was granted and the
matter continued to 12/12/2019.
At the time of Trial on 12/12/2019, continuing cross-examination of the witness Emery
continuing. When it became apparent that the line of questioning was unfocused and outside
the scope of proper cross-examination, the court intervened. Based on his testimony, he

FAIZAH

[DEAN 5-000000063T

dean

15

ADJ 8009847
Document ID; 4066785450319151104

understood that in the prior proceedings on this matter lie had had dual roles, both as a
potential witness and employer designated representative. He also testified that he had only a
"vague recollection’' of two documents dated 11/12/2010 and I ..'20:201 1, to which the applicant
objected on the basis of lack of authentication. He would also testily that in providing the
applicant her workers’ compensation packet, that he had acted within company policy as set
forth in the Accident Prevention Manual Revised October 2007 (Applicant’s Exhibit "27 ’).
After offering the parties an opportunity to submit post-Tria! Briefs, which the parties
declined, the case stood submitted for decision.

DEFENDA N T 'S PETITION TO QUASH SUBPOENA DICES TECUM, ORDER AND
APPLICANTS OBJECTION THERETO AND MOTION TO SET ASIDE ORDER:
This matter was the subject of the Mandatory Settlement Conierencc set lor 5/1/2018
(EAMS Doc ID 66926604). at which time it was set for Trial on the issue of the applicant
amended Petition dated 5/1/2018. This case then proceeded to its initial Trial of 6/25/2018. It
was after the initial Trial that the applicant Subpoena Duces Tecum issued on 10/25/2018, as
set forth in the defendant's Motion to Quash dated 10/25/2018 (.HAMS Doe ID 27638111), and
the applicant’s object ion filed ! I ■' I (); 201 8 (EAMS Doc ID 6S701859.)
The question here is whether the applicant has sustained her burden of proof in
establishing good cause for reopening of discovery after the MSC and after the initiation ot
Trial pursuant to Labor Code Section 5502(e)(3). While the applicant has submitted the
alidity of a number of documents offered by the defendant as exhibits, nothing is set forth in

FAIZAH DEAN

IDEAN 5-0000000641*

16

ADJ8009847
Document ID: 4066785450319151 104

said Petition so as to establish such good cause to reopen the record, and thus the Order
Quashing SDT dated 10/26/2018 (RAMS Doc ID 68495158) will remain.

ADMISSION OF EXHIBITS:
The applicant has raised the validity of exhibits of letters dated 11/12/2010
(Defendant's Exhibit “I 11 1") and 1/20/201 1 (Defendant’s Exhibit "KK”). Noting such
documents are unsigned and otherwise unauthentieated, and the testimony of witness Emery
that he has only a "vague memory” of such documents, they will be excluded. Otherwise.
Defendant’s Exhibits "S” through “GG”. "11”, and ”JJ” will be taken into evidence.

STA TUTE OF LIMITA TIO XS:

Labor Code Section 132a(4) prov ides as follows:
"Proceedings for increased compensation as provided in paragraph (I), or for
reinstatement and reimbursement Jor lost wages and work benefits, are to he instituted
In- tiling an appropriate petition with the appeals hoard, hut these pmeeetlings may not
be commenced more than one rear from the discriminatory m t or dale of termination
of the employee. The appeals board is vested with Jnl! power, authority, and
iurisdietion to trv and determine finally alt matters specified in this section subject only
to judicial review, except that the a/tpcais hoard shall have no jurisdiction to try and
determine a misdemeanor charge. 7 he appeals hoard may refer anil am worker may
complain of suspected violations of the criminal misilenieanar provisions of this section

PA1ZAH DEAN

|DEAN 5-0000000651'

17

A DJ8009847
Document ID: 4066785450319151104

-1990000000-s treacil

H)l IS !6I£0Xt-C8W0t -Cli IH3UHV'0G
/.fSOOOSfCJV

NVZ1Q ! IVZIVJ

XI

:snpt.-\o.id Ct‘-| uopnns ppoo-ioqin
:»Zll \ 0I1J JS -K10J non VI JO SOU VIOL 1 0393111 S< U3A 0'hlJ\ 3

■pru.tuq st
snip put? *(t"tTZI uouviq •~'P<V)

oi ittt?tisjnd suoijtuiuuj jo nimuis .upa .''uo poquoscud nqi

npisjno >t iiou.n? sup imp punoj nq qt’qs it ‘siu|.l 'i:ctZ I Hippos opoj -|l'qn'l Oi jttcnsjnd qnption
A.ioiutiiuu.nsqp snniin.q]n.i .lotpiou imp rtupou '(/.COiXidt Ql r’,-'0 S1W3I £1 cPXtXI'QV PU1!

U*)$m'6i Gi ^'G Si-NVTI) (.11\) ifSlOOXTGV «! utiujjjo uopipipnfpy JO) uopiPipWv *\\
joSuipi [nutnuo nip pn.tnpisuon osp? siu| i.mon nq.|, 'pn.urq nq ppio w snip put? '{1-)*'Z11 uojpns
npop) .toqi?"] .mpun notjt?tu.ui| |o njnuus ouo pnquoso.td tup optsmo r»q pjfto v, u |op.. |. p U<> t?pt 1
uotpos opo} .toqi?| .inpun uoppoj .tip jo Ttutpj nip 'pnpuoosiut qons jo utui st? pniuisuon n.iou
.!,">pi?| nip p un.\q tiosip-j t?uuopp:j luoipnos jn.Xo|dutn .wq \q pnpuonsti.u A.ioinuiiiu.pstp ipin\
op oi ntuipou snq ,\[qnnri.!i? qnii|A\) oupo|3 >|.u?{| .PAO|diuo ii.tonbosqns nip uto.p uotq:uutuoi
.tot] ipt.w i | (iZ:lZ ‘Z SiHpun pm- (i\OZ,'L I /X 1,0 *-'ums0 MM "

soououiuup

.pXojdtua nip Kq

pnpuoosiut pnftrqp? jo ft tt i is q sit in pnjtnpp o.toui ‘uoutpj pnpuouin nip jo .vpjao.i v 'fppc()ppp
Cli -toQ Sl\V I > S'IOC VZ 0 uopijn,! popi.PA XjHPnbosqnv pin? uopipj popiinim: nip jo iHiqij
nip Xq po.nopoj

sk.m su|JL

p.->jt?p npq.w

t~c[

(pl<)\im\r GI •''°Q SINVrl) HOC I c l!iun Pll»1,H! s,;" ‘CiOC Xc.6
ttoipos ?po,-> .ioqtrj jnpun uo»u.\| |t:utrb.to s.tutpi|ddt: ni|j.

\ioin.i,iso.u!
oippul,'/// jo p.njjo ,vit oi Ait.ip.op Jo ‘juputp.i.totir.] sp.tnpimi$ .lOi/irj jo m-ssnuj Pijl <>t

"ft is the declared police oj litis state that there should not he discrimination against

workers n ho are inpired in the course and scope of their employment.
(I) , l.<n employer who discharges, or threatens to discharge, or in any manner
discriminates against any employee because he or she has filed or made known his or
her intention to file a claim for compensation with his or her employer or an

application for adjudication, or because the employee has received a rating, award, or
settlement, is guilty old misdemeanor and the employee's compensation shall be
increased by one-half. bat in no event more than ten thousand dollars (SlO.UiHn.
together with costs and expenses not in excess of two hundred fifty dollars ($250/. Am
such employee shall also be emitted to reinstatement and reimbursement tor lost wages
and work benefits caused be the aets of the employer.
(2) Anv insurer that advises, directs, or threatens an insured tinder penalty of
cancellation or a raise in premium or for any other reason, to discharge an employee

because he or she has Hied or made known his or her intention to file a claim Jor
compensation with his or her employer or on application for adjudication, or because

the employee has received a rating, award or settlement, is guilty oj a misdemeanor
and subject to the increased compensation and costs provided in paragraph (It
(x) Anv ernphn er who discharges, or threatens to discharge, or in an\

maimer

discriminates against any employee because the employee testified or made known his
or her intentions to testify in another employee’s case before the appeals board, is
guiltv oj a misdemeanor, and the employee shall he entitled to reinstatement and
reimbursement for lost wages and work benefits caused by the acts of the employer.

FAIZAH DHAN

IDEAN 5-000000067f

19

ADJ 8009847
Document ID: 4066785450319151104

1890000000-s Hvaa

M)l ISIfilCOO-SSiWOfr 01 Ui-->timxxj
iWiOOSKlV

\V"I(I HV7IV.I

0c

•ajqqtBAt? .i9fluo|
on run siroijist.nl uioijw ,ioj s3?AO[duici .10 sno^ojcluta pruppinbun SuiAO[ckuM.i .\q ss.misnq
Smop )o saijippa aip s.iouni o] ja^oiduia uu pduioD jo» soop (tijn'i iioipas npoj .ioqnq)„

‘C()c | 003 07 *8£61)

) aVO/VT "' uoijcaodioo ibai^osprif ui pajou scaa sy

„ '.tO1H.),1X0.1,J Ol/qJIfJ
otp Jo .xvjfo otp m .1 jioo.iip .to luoiuoo.tojup xp.mpititj£ .toqvj [o uotxi.ug oip 01 npc/
ttopoop opaj .toqtrj jo s'uosxiAO.td .totinoiuopxiui /nitiitn.tj oqj Jo siiopn/oiA poioodxns
‘Jo uinjdiuo.) .win joi/.iom .1 an .to ‘.tofo.t aihii pjuog sjnoddy napnsuodutoj tx.i,ty.to.fj ,nji

popunoj si ,?.o.tnijo nip

nodn xtxnq nt/jnodx nip

Jo pnxtAjw \pnj oq Xmu p.n.'op s-/noddy iiopnsundiiioj ^s.tnq.topj 01/j put) sop.tod .10 Ai.tud
ns.toApn .lift imp os pnpnn/d AjnjD.tndns nq ixiuti tiotinjoiA pndopu tjjog jijdnox /o.’/o.i,np
puv ’minis ,vp a\oi‘s 01 no pnt/o.i siouj'pint podopn ttoptijoiA tpao fo n.in/nti .up pmnp it;
put) AlJIUp! Onds tp.toj nltllJOX .tqfiuoijl ItOjlUOd I) opj jxiiut joun.nunpxnu .toj not 111 ooso.id
UUtp .uvpo p-f I UOpOOjj ,tpoj .toqtrj .1,-tptlll sdlt/p.tpoo.td OlOputl 01 dltpptos UOS.tod Aliy,,
:sA\o[iqj si; snpiAO.id ,i;>qj.inj /.t^bGI ^ln>J

'.tounnutopsiui n jo uptto si 'p.moq
sptmfdii .up .yjqf.Hj oxnn x, on.\o/ditio .loipoun in .jury <11 luitptonti .totj .to sit/ iimoid/
opout .ID pop! ISO l OOAO.tdiltO Olp OXIW.tOq OOAOjdltlO III’ j Sit! Drill Oj mo in uosip jointnui
\:in in .to ofum/osif) 01 iiosim.i j.npo aiid jo/.id tt.iniiiio.id in osio.t n .to ttniw/joniivo
Jo Aipviod .lopitn .to\ojdtno po.nisiii im xitoiiio.tiji .to \v/ no.tip ’soxiApn imp jn.nisin Any (p)

In reviewing the full record, to include the pleadings, witness testimony, and admitted
exhibits, the court notes that a number of allegations are made as against in the employer in the
form of unfair labor practices, violation ot collective bargaining agreements), and other
discriminatory basis to include race and gender. However, the threshold to consider is whether
the employer engaged in discriminatory conduct on the basis of the applicant having filed (or
made known an intent to file) a workers’ compensation claim. None of the submitted evidence
would establish such a conclusion under Labor Code Section i 32a. In fact, the employer’s
actions as against this employee were considered in different tribunals in the context of other
alleged misconduct, with the finding that the employer had either acted appropriately or had
not acted inappropriately.
Thus, in the event that (he statute of limitations is not considered a bar, it shall be found
that the applicant has not sustained her burden of proof to establish discriminatory conduct
under Labor Code Section 132a.

t

-5

CT~

DATE: 01/14/2020

Robert Hill
WORKERS’ COMPENSATION
ADMINISTRATIVE LAW JUDGE

FA1ZAH DEAN

IDEAN 5-000000069T

21

ADJ8009847
Document ID:4066785450319151104

ALBERT MACKENZIE OR \N( IE. US Mai!
CA MUD MANAGEMENT MONTEBELLO. US Mail
FAG LB EYE IMAGING FONTANA, US Mail
EDI) SDI SAN BERNARDINO, US Mail
FAl/.Ail DEAN, US Mail
GOLDSTAR FINANCIAL SANTA I F SPRINGS, US Mail
ORACLE MFD COLLECTIONS POMONA. US Mail
PASF.O PHARMACY, US Mail; SO CAL EDISON, US Mail
SOUTHERN CAL EDISON ROSEMEAD, US Mail
VERBATIM RX PHARMACY POMONA, US Mail

FA1ZAF1 DEAN

IDEAN 5-000000070]-

ADJ8009847
Document ID; 4066785450319151104

Appendix
C

IDEAN 5-0000000721

•'
L\: ■,

!.-!• r.'.viTv.v>
0:1 (.

COURT OF APPEAL - STATE OF CALIFORNIA
FOURTH DISTRICT
DIVISION TWO
ORDER

FAIZAH DEAN.
Petitioner.
v.
WORKERS' COMPENSATION APPEALS
BOARD and SOUTHERN CALIFORNIA
EDISON.
Respondents.

E0756I5
(WCAB Nos. ADJ8009847.
ADJ83862 17 & ADJ8386218)

THE COURT
The petition for writ of review is DENIED.

MENETREZ
Acting P. J.
Panel. Menetrez
Slough
Miller
cc:

See attached list

IDEAN 5-0000000921

SUPREME COURT

FILED
Court of Appeal, Fourth Appellate District, Division Two - No. E075615

DEC 1 6 2020

Jorge Navarrete Clerk

S265459

IN THE SUPREME COURT OF CALIFORNIA

Deputy

En Banc
FAIZAH DEAN, Petitioner,
v.
WORKER'S COMPENSATION APPEALS BOARD and SOUTHERN CALIFORNIA
EDISON, Respondents.
The petition for review is denied.

C ANTI L-S AKAUYE
ChiefJustice

IDEAN 5-0000000731

MAILING LIST FOR CASE: E075615
Faizah Dean v. WCAB and Southern California Edison
Faizah Dean
8208 Magnolia Avenue. # 11
Riverside, CA 92504
Allison J. Fairchild
Workers' Compensation Appeals Board
Office of Commissioners. Appellate Unit
455 Golden Gate Avenue. 9th Floor
San Francisco. CA 94102
Peter J. Karlzen
4001 Inglewood Blvd.. Bldg 1. Suite 303
Redondo Beach. CA 90278
Workers' Compensation Appeals Board
455 Golden Gate Ave.. 9th Floor
P.O. Box 429459
San Francisco, CA 94142-9459

[2 copies]

Workers’ Compensation Appeals Board
3737 Main Street. Third Floor
Riverside. CA 92501

[1 copy]

IDEAN 5-000000093]

Appendix
D

IDEAN 5-0000000741

1
2
3

Faizah Nailah Dean
10381 Meadow Creek Dr.
Moreno Valley, CA 92557
E-mail: faeesha@me.com

4
5

6
STATE OF CALIFORNIA

7

WORKERS’ COMPENSATION APPEALS BOARD

8
9

10

FAIZAH DEAN, an individual,
Applicant,

11

APPLICATION FOR DISCRIMINATION
BENEFITS PURSUANT TO LABOR
CODE SECTION 132(a)

12
13

WCABNo. 8386217

vs.

14
15

SOUTHERN CALIFORNIA EDISON, a
California Corporation;

16

Employer

17
18
19
I feel I am entitled to these benefits because the defendanKflscriminated against me in

20
21

workers compensation, and my employment with defendant Southern California Edison was

22

terminated without “just cause” and in violation of Labor Code Section 132(a). This is wrongful

23

termination motivated by the violation of the public policy. The violation of public policy was a

24

non-compliant equipment the defendants provided for all its employees but had an adverse

25

affect on me as a female when used in the field as a toilet. The bag and bucket toilet is

26

believed to be the cause of bacteria entering her vagina, cause abnormally heavy discharge,

27

swelling, and irritation to the female employee Faizah Dean to the extent that she had to

28

request a doctor, sought a doctor, and asked for better accommodations for working in the
1
COMPLAINT FOR VIOLATION OF LABOR CODE

iDEAN 5-000000075]

9-28-2012

1

field. It is believed by the grieved employee Faizah Dean that the irritation to her private area

2

would not have happened if she was provided a safe and healthy restroom facility with

3

adequate water and soap, and towels or if the company had provided clean portable toilets for

4

all.
Suspended without “Just Cause"

5

On August 17, 2010 I was suspended without cause. I was placed on investigatory

6
7

suspension until they found out. Present was Tyrone Chamois and Byron Redd as two

8

Supervisors and David Baker. Why did SCE suspend me without cause? Why didn’t David

9

Baker inform me of my rights? Faizah Dean reported gender discrimination to the company

10

because she believed the treatment toward her was based on her gender difference after she

11

was suspended without cause.
Ethics and Compliance Hotline

12

I called Ethics and Compliance Hotline and spoke with Patrick Shipwash and Deborah

13
14

Groves about discrimination in the company. An case was initiated in my claim at 4:30pm.
Investigatory Suspension Day One

15

Faizah N. Dean was told to call in every day at 7:00 am, until they complete their

16

17

investigation and find out why they are suspending her. Why did the company suspend me

18

without cause?

19

On August 18, 2010 I called in at 7 am and spoke with Byron Redd. He told me they

20

had not found out anything yet, but I will get my pay back. Why did Byron Redd say that he

21

had not found out on the second day? Why did he tell me I was going to get my pay back?
On August 19, 2010 I called in to Byron Redd and was ordered to come in at 9:00am.

22
23

On this day I arrived to SCE Foothill Service Center in Fontana, CA. I was instructed to report

24

to Eric Emery office for the meeting. Present were Eric Emery, Byron Redd, and Tyrone

25

Chamois. They read the Performance Action Plan to me, and Reinstatement Letter for failure

26

to follow directives which lead to safety rule violations. See exhibit________ __________. I

27

disagreed with the allegations because I did not violate the safety rules and I was willing and

28

able to follow their directives.
2
COMPLAINT FOR VIOLATION OF LABOR CODE

IDEAN 5-000000076I

9-28-2012

1

Performance Action Plan

2

“ Your action plan is being extended for another 30 days. You will need to demonstrate

3

sustained improvement in all areas mentioned above. You will need to reduce your below

4

scores significantly before you will be able to progress to your next step. Over this period of

5

time we will review your progress with all appropriate Foreman. If you take corrective action to

6

improve your safety focus and improve your knowledge, you should be able to progress to the

7

next step in your apprenticeship, if you do not demonstrate immediate and sustained

8

improvement in the next 30 days you will have this action plan extended for another 30 days.

9

Reinstatment Letter

10

“Ms. Dean, your insubordinate behavior, safety rule violations, and tardiness will not be

11

tolerated. You must make immediate and sustained improvement. Failure to improve and

12

sustain your performance in these areas will result in further disciplinary action.
From August 20, 2010 through August 24, 2010 I worked with various crews.

13

Doctors visit Kaiser Permenente

14

August 23, 2010 I sought a doctor’s advice, because I wanted to improve my work

15
16

performance. I began with the symptoms I would have from time to time that I ignored a lot of

17

the time because I was not sure if it was sore muscles or tired from working long hours. I was

18

not sure if I had a vision problem or a need for better nutrition. I was not sure so I sought a

19

doctor to guide me in good health.
August 24, 2010 I reported my injuries to my supervisor and spoke to him about

20
21

workers compensation about my back pain, eye strain, and vaginal swelling and irritation

22

associated with the unsanitary condition in the field when working using the bag toilet

23

systems.

24

First, I asked for better accommodations in the field because of the vaginal problems I

25

was having to use the restroom outside in the belly of the line trucks because there were not

26

other options for me as a female. He did not respond.

27

Second, I reported that I had pain in my lower back around my butt the seem to

28

exasperate with the wear of the lineboots to do groundwork, and long periods of sitting in hard
3
COMPLAINT FOR VIOLATION OF LABOR CODE

IDEAN 5-000000077I

9-28-2012

1

chairs seem to bother it too. I asked if I could bring two pair of work boots to work. He okay

2

me to bring two pair of shoes to work.
Third, I reported that I to get blurred vision after heavy pressure, stress and or strain

3
4

comes around my temples and around my eyes of my face. I had some prescription glasses

5

but it does not seem to be a eye vision problem. It can be distracting and make it difficult to

6

focus.

7

Ethic and Compliance Investigator

8

Intro
At 11:30 am I met with SCE investigator Keith Dobson about investigating the gender

9
10

discrimination in the department. He introduced him self and asked about it. I told him the their

11

was discrimination in the policies and procedures of the apprenticeship program. He told me

12

he was going to speak to Chino Training Center then to management and he would return.

13

Investigative Meeting with Management. Me. and Keith Dobson

14

September 9, 2010,1 met with Keith Dobson about the investigation. I told him about

15

Ron Delgado's Son Telling me "I need to go back to marry maids and do some house work. “ I

16

first warned him that the Ron Delgado is the IBEW47 President/SCE Troubleman and Robert

17

Delgado is his son.

18

On September 13, 2010 I worked.

19

On September 14,1 went to the doctor to have my knee x-rayed. I called the day off.

20

On September 15, 2012, I reported to work. I performed my daily stretch routine. We

21

had a crew meeting. I was asked to report to Byron Redd. I was removed from the

22

apprenticeship program. Present was Byron Redd, Eric Emery, and Tyrone Chamois. I told

23

Tyrone Chamois I did not want his services. He was a conflict of interest.
A few days later, Ron Delgado came to represent me in my removal from the program.

24
25

I met and conferred with him in private. He would always tell me. Your not going to get your

26

job back. I believe that Ron Delgado has the power to make sure I don't get my job back.

27

Pre-Exitino Interview to Non-Paid leave

28

November 13, 2010
4
COMPLAINT FOR VIOLATION OF LABOR CODE

IDEAN 5-000000078I

9-28-2012

On November 13, 2010, Present was New Manager of the Department, Eric Emery,

1
2

Faizah Dean and Ron Delgado IBEW47 President represented me in my exiting interview. He

3

told me, “ If I had not contacted the Human Resource department, he could have helped me. “
Overview

4

The defendant removed me from the apprenticeship after having a meeting with

5
6

management on September 9, 2010 with investigator Keith Dobson about gender

7

discrimination in the policies and procedures of the apprenticeship program. Keith Dobson

8

finalized his investigation stating that their was no discrimination in employment and closed

9

the case after I was placed on Non-paid leave.
Southern California Edison the defendant did not allow me to rebid the apprenticeship

10
11

and stated in the policies and procedures when an apprentice is voluntarily or involuntarily

12

removed from the apprenticeship can rebid. I had senority and was qualified as a Groundman

13

A. I entered as a Groundman A-3 qualified by prior training and experience through and

14

approved Southern California Edison training facility, but the defendants did not allow me to

15

bid online after I was placed on Non-paid leave, and rejected any bids for Groundman A-3, or

16

Apprentice Lineman. When I was removed from the Apprenticeship, I was not removed

17

because I could not climb. The Apprenticeship place me in a Groundman position

18

(Groundman A-3) My training or certification had not expiration and there was nothing in the

19

policies or procedures to prevent me from rebidding. The Bidding system would not allow me

20

to place any bids for jobs after November 14, 2010. I was blocked from bidding. I was placed

21

on non-paid leave.

22

Groundman A-3

23

I bidded for Groundman A-3 and I was told that the Chino Training Center was sending

24

a list of names of people who could not take the jobs. (I will only give the name of the person if

25

necessary to protect them.) I was qualified for the job.

26

Meter Reader

27

I was offered a lower paying job as a meter reader over a 70 miles away from my home

28

paying half of what I was making and not enough to pay for child care, rental agreement, and
5
COMPLAINT FOR VIOLATION OF LABOR CODE

IDEAN 5-000000079]

9-28-2012

1

travel and expenses associated with the job. I called the Yucca Valley Service Center to

2

investigate the job. The job was going to end or phase out in four months. The job paid about

3

15.00 per hour or half of my current pay. I could not drive that far. I declined.

4

I was rejected for the planner job I bided on because of senority.

5

On January 7, 2011, Eric Emery emailed me information about scheduling and

6

confirming a Substation Apprentice Test on January 13, 2011.1 thought that was a weird

7

message considering I was fired on that date. I was also working for Par Electric.
I WAS OFFERED THE SUBSTATION APPRENTICE TEST ON A DAY I WAS

8

ALREADY TERMINATED FROM THE COMPANY.

9
10

January 13, 2011

11

On January 11,2011, Eric Emery emailed me to not come in as stated in the letter. (On

12

January 11, 2011 SCE received the CalOSHA complaint.) When I spoke with him over the

13

phone he said he did not know why.
Hank Colt called me on January 11, 2011 and asked me if I was going to take the

14
15

Substation Apprentice Test. I told Hank that l needed two weeks to study. He hung up.

16

RON DELGADO CALLED ME BETWEEN

17

JANUARY 14, 2011 THROUGH JANUARY 20, 2011

18

Ron Delgaldo told me I did not have to come in if they are not going to give you a job.

19

You already have a job. He said he was going to talk to SCE. He never spoke to me again, i

20

did not come in on January 20, 2011 for my exiting interview, so I could keep my job.
On January 27, 2011,1 was terminated from (IBEW47 Contractor) Par Electric. (On

21
22

January 27, 2011, Cal OSH A in San Bernardino, CA received SCE response to my complaint

23

about the Brief relief bags and disposable johns.)

24

Summary

25

The defendant wrote a written contract to terminate me on January 12, 2011 I bidded

26

for a Substation Apprentice Job that had a test date of January 13, 2011. Since the contract

27

stated that it was pending a successful transfer or Bid opportunity, at the end of the 2nd 60 day

28

period your employment will be terminated ending on January 12, 2011. I believed there was

6
COMPLAINT FOR VIOLATION OF LABOR CODE
IDEAN 5-000000080!

9-28-2012

1

no need to study for a test that I would not be eligible for because the test date was beyond

2

the 60/60 plan.
I believe I was not afforded a fair opportunity to take the test and was retaliated against

3
4

for OSHA complaint, SCE Interna! Investigation, discriminated against in employment,

5

andworkers compensation, and wrongful discharge in violation of public policy.
This Application for discrimination benefits pursuant to Labor Code Section 132 (a)

6
7

began August 24, 2010 after I reported my injuries to my supervisor, through September 15,

8

2010. On this day, I reported my injuries to my supervisor, Byron Redd. I asked for better

9

accommodations in the field because I had abnormal swelling inside of my vagina and

10

irritation in my private area after using the "Disposable John" and bucket as a toilet facility

11

outside working in the field on the 4KV Cut Over. This was not the first symptom I had. This

12

was the second symptom. (The first symptom I had was very abnormally heavy secretion. I

13

was concerned and made an appointment to have a pap smear. I was scheduled in May 2010

14

at Kaiser, Wildomar, CA. The results were good except they found bacteria and classified it as

15

abnormal.)
Southern California Edison did not accept my claim until after I was terminated. See

16
17

exhibit for exact date. I was denied because there was not medical evidence. Although I had

18

medical evidence acquired prior. I believe the defense to plead the statue of limitation may be

19

estopped by negligence, misrepresentation, by record, by conduct.

20
21

PERMITTING DANGEROURS CONDITIONS TO CONTINUE

22

U.S. Warren v. Hudson Pulp & Paper Corp

23

Mere inaction

24

Althogh a person is responsible for the foreseeable consequences of his or her inaction

25

as well as action, and although inaction, as well as action, may constitute negligence, mere

26

inaction does not constitute negligence in the absence of aduty to act. A failure to act in a

27

particular manner, whether characterized as negligence as a matter of law or as common law

28

7
COMPLAINT FOR VIOLATION OF LABOR CODE
|DEAN 5-000000081]

9-28-2012

1

nefligence, gives rise to no legal liability unless the party claiming a breach of duty can show

2

that his or her claim is within the scope of such duty.
The question is why did the defendant make a decision to not include the other

3
4

injuries?
First Written Agreement made August 19. 2010

5

6

The defendants created a written agreement stating: "Failure to improve and sustain

7

your performance in these areas (insubordinate behavior, tardies, and safety rule violations)

8

will result in further disciplinary action.”
Second Written Agreement made August 19. 2010

9

The defendant also created another written agreement stating If you do not

10
11

demonstrate immediate and sustain improvement in the next 30 days you will have this action

12

plan extended for another thirty days.
What did Ms. Dean do to be removed from the SCE Apprentice Lineman

13
14

Apprenticeship between August 19, 2010 through September 15, 2010 which was the

15

cause for the termination?

16

Mrs. Dean was removed from the Apprenticeship Program September 15, 2010,

17

“This letter is to inform you that you have been removed from the Apprentice Lineman

18

Program due to multiple occasions of rule violations, unsafe work practices, failure to follow

19

directives and failure to meet minimum requirements of the Apprentice Lineman Program.'1
What did Ms. Dean do to be removed from SCE on January 20,2011 which was

20

the cause for the termination?

21
22

I did not have access to the company bids and transfers as well the non-represented

23

jobs. The company access was blocked every time I tried to submit a bid through the online

24

system it would not accept any bids after I was places on non-paid leave. I was a Groundman

25

A-3 the company sent a list of names of people to reject. I applied for Groundman A-3 jobs

26

and the company intentionally denied me the job. I had a right to rebid. I was a Groundman A-

27

3, after the company removed me from the apprenticeship I was a Groundman A-3 by my

28

qualifications and training with no expiration. It is like having a degree.
8
COMPLAINT FOR VIOLATION OF LABOR CODE

|DEAN 5-0000000821

9-28-2012

1
2

Labor Code Section 132 (a)

3

It is the declared policy of this state that there should not be discrimination against

4

workers who are injured in the course and scope of their employment.
(1) Any employer who discharges, or threatens to discharge, or in any manner

5
6

discriminates against any employee because he or she has filed or made known his or her

7

intention to file a claim for compensation with his or her employer or an application for

8

adjudication, or because the employee has received a rating, award, or settlement, is guilty of

9

a misdemeanor and the employee's compensation shall be increased by one-half, but in no

10

event more than ten thousand dollars ($10,000), together with costs and expenses not in

11

excess of two hundred fifty dollars ($250). Any such employee shall also be entitled to

12

reinstatement and reimbursement for lost wages and work benefits caused by the acts of the

13

employer.
1. The employee need not show that the employer's agents consciously or

14
15

deliberately set out to prevent or delay the employee's filling of a claim. Rather

16

the employer's violation, through it negligence, of its duty to provide a claim form

17

and notice of potential eligibility when it learns that an industrial injury has

18

occurred or is being asserted, resulting in the employee’s prejudicial reliance, is

19

sufficient to give rise to estoppel. If the employer does not reject liability within

20

this 90 day period, the injury is presumed compensable under the compensation

21

law, and this presumption is rebuttable. (Honeywell v. W.C. A. B. [Wagner!

22

(2005135 Cal. 4lh 24. 37-38, 24 Cal. Rptr. 3d 179. 105 P. 3d 544, 70 Cal. Comp.

23

Cases 97).
The employer was required to provide the employee with specific notices, including

24
25

written information, explaining the time limits for filling a claim, and that the employer’s failure

26

to provide the proper notice tolled the statue of limitations.
(Santa Barbara county v. W.C. A. B. [Santos] [2009] 75 Cal. Comp, Cases 56. 58-59

27
28

[writ denied!)

9
COMPLAINT FOR VIOLATION OF LABOR CODE
[DEAN 5-000000083|

9-29-2012

Estoppel to Plead Statute

1
2

When the employer’s conduct is such as to lead the employee, in reliance on this

3

conduct, to postpone the filing of a claim with the Appeals Board until after the statutory period

4

has run, the employer may be estopped from raising the defense of the statute of limitations.

5

[Kaiser Foundation Hospitals v. W.C.A.B. (Webb) (1977) 19 Cal. 3d 329, 333-334, 137 Cal.

6

Rptr. 878, 562 P.2d 1037, 42 Cal. Comp. Cases 302]

7

Employee’s Knowledge of Compensable Injury

8

In general, an employee is net charged with knowledge that his or her disability is job-

9

related without medical advice to that effect, unless that nature of the disability and the

10

employee's training, intelligence, and qualifications are such that the or she should have

11

recognized the relationship between the known adverse factors involved in his or jher

12

employment and his or her disability. [Chambers v. W.C.A.B. (1968) 69 Cal. 2d 556, 557-559,

13

72 Cal. Rptr. 651, 446 P.2d 531 ,v 33 Cal. Comp. Cases 722
Employers are required to give any employee who is a victim of a crime that occurred

14
15

on the employment premises written notices that the employee is eligible for workers

16

compensation for any injuries, including psychiatric injuries, that may have resulted from the

17

crime.

18

fCrime is the breaking of rules or laws for which some,goyerning,authority (via

19

mechanisms such as legal systems) can ultimately prescribe a conviction. Crimes may also

20

result in cautions, rehabilitation or be unenforced.]
The notice must be provided, either personally or by first class mail, within one working

21
22

day of crime's occurrence or within one working day of the date tht the employer reasonably

23

should have known of the crime. Labor Code § 3553

24
When the employer has the requisite knowledge but fails to notify the employee in

25
26

writing either (1) that the employee may be entitled to compensation benefits, or (2) that the

27

employer is denying the employee's right to any compensation benefits [Lab. Code § 5405(a);

28

see § 24.03(1], above] is tolled until such notification is given to the employee or until the
10
COMPLAINT FOR VIOLATION OF LABOR CODE

IDEAN 5-000000084]

9-28-2012

1

employee receives actual knowledge that he or she may be entitled to benefits under the

2

workers compensation.
As I see it the statue of limitation to was tolled and may be grounds for pleading

3
4

estoppel against the defendants for a defense of statue of limitations.
Explain what happened during your employment that contributed to your injury or

5

illness?

6

Explain what happened after you reported your injury to management?

7

It is illegal for your employer to punish or fire you for having a job injury or illness, for

8

9

filling a claim, or testifying in another person’s workers compensation case [Labor Code

10

Section 132(a)] If proven the applicant my receive lost wages, job reinstatement, increased

11

benefits, and costs and expenses up to limits set by the state.
I had a protected activity. I did not know SCE was in violation of OSH A until around

12
13

January 25, 2011 (see OSHA Exhibit). I did not know I was entitled to Workers Compensation

14

benefits after I was terminated. My supervisor ignored my report of my injury to my vaginal

15

area and did not inform me of my right to Workers Compensation.
The company denied and refused me medical after asking them to reopen my claim for

16
17

my vaginal injury.
Southern California gave all of their employees in my field unsafe and unhealthy

18
19

equipment to use in the field. The company knew their product use could be a criminal

20

offense. The males used brief relief bags designed for males to use in the field. These are

21

portable urinals designed to make it easy and convenient for male to use the restroom while

22

working, but there was nothing available for me.
The Department of industrial Relations Retaliation and Discrimination Unit determined

23
24

that I had a protected activity and it violated the Public Policy (Occupation Safety and Health).

25

JURISDICTION

26

The Workers Compensation Judge has the jurisdiction of Labor Code Section 2922 and

27

subject to the exclusive jurisdiction over workers compensation claim in violation of these

28

section Palmer v. Roadway Exp., Inc., N.D. Cal. 1987, 664 F. Supp. 458.
11
COMPLAINT FOR VIOLATION OF LABOR CODE

|PEAN 5-000000085]

9-28-2012

1

ft is the discretion of the court (Labor Code Section 2922 (5). Under written

2

employment contracts and under this section, an employer and an employee are free to

3

depart from the statutory presumption of at-will employment and specify that the employee will

4

be terminated only for good cause, either by an express, or an implied, contractual

5

agreement. Stillwell v. Salvation Army (App. 4 Dist. 2008) 84 Cal. Rptr.3d 111, 167

6

Cal.App.4,h 360. Labor and Employment (Key 33).
JUST CAUSE CLAUSE

7

It is presumed to be "at will”. However, an employee handbook may create an

8
9

agreement that termination will only be "for cause”.

10

International Brotherhood of Electrical Workers Local 47

11

IBEW47 and SCE Collective Bargaining Agreement

12

Article VI

13

Management Prerogatives

14

A. The Company has and will retain the right and power to manage the plant and direct the

15

working forces, including the right to hire, to suspend, or discharge for just cause, to promote,

16

demote, and transfer its employees, subject to the provisions of this Agreement. Any claim

17

that the Company has exercised such right and power contrary to the provisions of this

18

Agreement. Any claim that the Company has exercised such right and power contrary to the

19

provisions of this Agreement may be taken up as a grievance and to arbitration, except that

20

the provisions of Article IV, Article V, and of this Article VI shall not apply to the discharge of

21

any employee during the first six (6) months of the employment of any employee. The

22

Company agrees to discuss with the Union any claim that any employee has been dismissed

23

in violation of Article I, Section B, of this amended Agreement.

24
25

The defendant SOUTHERN CALIFORNIA EDISON, retaliated against me for complaining

26

about the affects of a non-comp!iant product in the field and denied me workers compensation

27

after reporting injury during the use of the field equipment.

28
12
COMPLAINT FOR VIOLATION OF LABOR CODE
IDEAN 5-000000086]

9-28-2012

1

The Defendant, SOUTHERN CALIFORNIA EDISON continued to employ me after the

2

termination date of January 12, 2011.

3

January 25, 2012, SOUTHERN CALIFORNIA EDISON was issued four citations from the

4

OSHA about safety and health issues in the field.

5
6

No treatment was rendered, order, or offered no workers compensation claim was filed

7

before I was terminated. Southern California Edison has continued to discriminate against me

8

in employment with its contractors. They kept sending the papers back.

9
10
Respectfully submitted:

11

12
13

September 28, 2012
Applicant (Pro per)

14

15
16
17
18

19
20

21
22
23
24
25

26
27
28

13
COMPLAINT FOR VIOLATION OF LABOR CODE
IDEAN 5-000000087I

... 9-28-2012

Additional material
from this filing is
available in the
Clerk's Office.

